<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY SECOND STAGE REVIEW: THE ROLE OF THE CHIEF INTELLIGENCE OFFICER</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                  THE DEPARTMENT OF HOMELAND SECURITY
                    SECOND STAGE REVIEW: THE ROLE OF
                     THE CHIEF INTELLIGENCE OFFICER

=======================================================================

                             JOINT HEARING

                                  the

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                             joint with the

                    SUBCOMMITTEE ON TERRORISM, HUMAN
             INTELLIGENCE, ANALYSIS AND COUNTERINTELLIGENCE

                                 of the

            HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 19, 2005

                               __________

                           Serial No. 109-47

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     
  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                      U.S. GOVERNMENT PRINTING OFFICE
34-420 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                   Rob Simmons, Connecticut, Chairman

Curt Weldon, Pennsylvania            Zoe Lofgren, California
Mark E. Souder, Indiana              Loretta Sanchez, California
Daniel E. Lungren, California        Jane Harman, California
Jim Gibbons, Nevada                  Nita M. Lowey, New York
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida           Bennie G. Thompson, Mississippi 
Peter T. KIng, New York (Ex          (Ex Officio)
Officio)

                                 ______

            HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE

                   Peter Hoekstra, Michigan, Chairman

Ray LaHood, Illinois                 Jane Harman, California
Terry Everett, Alabama               Alcee Hastings Florida
Elton Gallegly, California           Silvestre Reyes, Texas
Heather Wilson, New Mexico           Leonard L. Boswell, Iowa
JoAnn Davis, Virginia                Robert E. (Bud) Cramer, Jr, 
Mac Thornberry, Texas                Alabama
John M. McHugh, New York             Anna G. Eshoo, California
Todd Tiahrt, Kansas                  Rush D. Holt, New Jersey
Mike Rogers, Michigan                C.A. Dutch Ruppersberger, Maryland
Rick Renzi, Arizona                  John F. Tierney, Massachusetts
Darrell Issa, California

                J. Dennis Hastert, Speaker of the House

                    Nancy Pelosi, Democratic Leader

                                  (II)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut, and Chairman, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     1
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State California, Ranking Member, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment:
  Oral Statement.................................................    17
  Opening Prepared Statement.....................................     5
The Honorable Randy (Duke) Cunningham, a Representative in 
  Congress From the State of California, and Chairman, 
  Subcommittee on Terrorism, Human Intelligence, Analysis and 
  Counterintelligence............................................     6
The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Ranking Member, House Permanent Select 
  Committee on Intelligence......................................    20
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security                                                            7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Opening Statement.....................................     2
The Honorable Alcee Hastings, a Representative in Congress From 
  the State of Florida:
  Prepared Opening Statement.....................................     9
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    27
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    30
  Prepared Statement.............................................     3
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    29
The Honorable Silvestre Reyes, a Representative in Congress From 
  the State of Texas.............................................     8
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Michigan..............................................    24
The Honorable C.A. Dutch Ruppersberger, a Representative in 
  Congress From the State of Maryland............................    25

                               Witnesses
                                Panel I

Mr. Charles Allen, Chief Intelligence Officer, Department of 
  Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11

                                Panel II

Mr. Richard Ben-Veniste, 9/11 Public Discourse Project:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35

                                Appendix

Questions from Hon. Zoe Lofgren for Mr. Charles Allen Responses..    47










                       THE DEPARTMENT OF HOMELAND
   SECURITY SECOND STAGE REVIEW: THE ROLE OF THE CHIEF INTELLIGENCE 
                                OFFICER

                              ----------                              


                      Wednesday, October 19, 2005

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                             joint with the
                             House Permanent Select
                         Committee on Intelligence,
Subcommittee on Terrorism, Human Intelligence, Analysis and 
                                       Counterintelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3 p.m., in Room 
311, Cannon House Office Building, Hon. Rob Simmons [chairman 
of the subcommittee] presiding.
    Present from Committee on Homeland Security: 
Representatives Simmons, Brown-Waite, King (ex officio), 
Lofgren, Jackson-Lee, Langevin, Meek and Harman (ex officio). 
Also present: Representatives .
    Present from the Permanent Select Committee on 
Intelligence: Representatives Cunningham, Tiahrt, Rogers, Reyes 
and Ruppersberger.
    Mr. Simmons. The joint hearing of the Committee on Homeland 
Security Subcommittee on Intelligence, Information Sharing, and 
Terrorism Risk Assessment and the House Permanent Select 
Committee on Intelligence Subcommittee on Terrorism, Human 
Intelligence, Analysis and Counterintelligence will come to 
order.
    The subcommittees are meeting today to hear testimony on 
the role of the Chief Intelligence Officer of the Department of 
Homeland Security as proposed by the Department's Second Stage 
Review. The hearing will consist of two panels of witnesses. 
The witness for the first panel will be Mr. Charles Allen, 
Assistant Secretary for Intelligence and Analysis, and Chief 
Intelligence Officer of the Department of Homeland Security.
    The witness for the second panel will be former 9/11 
Commission Commissioner, Richard Ben-Veniste, a current member 
of the 9/11 Public Discourse Project.
    As a reminder to all Members, this is an unclassified open 
hearing. Therefore, the witness may not be able to answer every 
question fully in this setting. Members can, however, request 
answers to questions in writing, or we can schedule a 
classified briefing for certain questions on another day.
    The Department of Homeland Security Second Stage Review, or 
2SR as it is known in the Department, was Secretary Chertoff's 
first action as Secretary of Homeland Security. By initiating a 
comprehensive review of the Department's organization, 
operations and policies, Secretary Chertoff recognized that the 
Department must continue to improve its operations if it is to 
effectively combat terrorism against the homeland. A major part 
of this reorganization is the creation of a new Chief 
Intelligence Officer for the Department by elevating the 
position of Assistant Secretary for Information Analysis.
    Currently the Department has 10 different intelligence 
offices, including those in Customs and Border Protection, the 
Transportation Security Administration, U.S. Coast Guard, U.S. 
Immigration and Customs Enforcement, Information Analysis and 
Infrastructure Protection Directorate. While the Second Stage 
Review does not combine these offices into one intelligence 
entity, the reorganization goes a long way towards more 
effectively managing the Department's intelligence activities, 
led by the Chief Intelligence Officer. He will provide 
intelligence in support of the Department, serve as the 
Department's primary representative in the Intelligence 
Community, and will help to better disseminate information and 
intelligence to the Department's State, tribal and local 
partners.
    What is unclear, however, is how the new office will be 
able to coordinate departmentwide efforts without having 
management or budget authority over other intelligence 
components. While sheer force of personality, experience and 
expertise may succeed in temporarily bringing the CIA to the 
forefront of both the Intelligence Community and the Department 
of Homeland Security, I am very interested to know how you, Mr. 
Allen, plan to help make that position become an 
institutionalized presence within the Intelligence Community 
and within DHS.
    We have a long road ahead of us to ensure that this new 
office can fulfill the vision for DHS outlined in the Homeland 
Security Act, and we are all interested in hearing your 
thoughts on how we can achieve this common objective.
    Mr. Simmons. At this time I yield to the distinguished 
Ranking Member of the intelligence subcommittee of the Homeland 
Security Committee, the gentlewoman from California Ms. 
Lofgren, for her own statements.
    Ms. Lofgren. Thank you, Mr. Chairman. I will not take the 
entire 5 minutes for my statement, because I know that our 
second witness Mr. Ben-Veniste needs to walk out of this room 
no later than 4:30, so on the Democrat side we will ask all 
Members to submit their statements for the record so we can be 
sure to hear him.

                             For the Record

         Prepared Opening Statement of Hon. Bennie G. Thompson

    I am very pleased that this Subcommittee is turning its attention 
to Secretary Chertoff's Second Stage Review and his specific plans for 
both a new Chief Intelligence Officer and a new Office of Intelligence 
and Analysis.
    I hope that the Department's intelligence efforts will be better 
than their scheduling skills.
    I strongly support Secretary Chertoff's decision to elevate the 
importance of intelligence analysis within the Department by creating a 
Chief Intelligence Officer who will report directly to him.
    The Chief Intelligence Officer should play a key role in 
coordinating the efforts of all of the Department's intelligence units 
and developing a Department-wide intelligence strategy.
    Nevertheless, Secretary Chertoff has not added much flesh to the 
bones of his new approach.
    He has not provided specifics about perhaps the key intelligence 
issue facing the Department:
    Specifically, what will the focus of its intelligence work be?
    Secretary Chertoff has not offered any specifics about the precise 
powers that the Chief Intelligence Officer will have, or how the Office 
of Intelligence & Analysis will be structured.
    He likewise has not included any specifics about how information 
will be shared internally among the Department's various legacy 
agencies.
    Mr. Chertoff also has not articulated any specifics about how the 
Office of Intelligence & Analysis will serve as the primary connection 
between the Department and the wider Intelligence Community.
    How will it be the primary source of information for the 
Department's state, local, tribal, and private sector partners?
    The Secretary also has not included any specifics about how the 
analysis shop will avoid duplicating the efforts of the wider 
Intelligence Community.
    Without these details, it is very hard for this Committee to 
conduct meaningful oversight.
    In my view, it is pointless to have a Chief Intelligence Officer 
who does not have intelligence information that actually advances the 
Department's homeland security mission.
    I look forward to hearing from today's witnesses. I hope they can 
help us help the Department prepare and implement its mission to 
prepare for, protect against, and thwart terrorist attacks with 
specific and actionable intelligence information.

    [The statement of Ms. Jackson-Lee follows:]

             Prepared Statement of Hon. Sheila Jackson-Lee

    On November 25, 2002, the Homeland Security Act of 2002 transferred 
over 22 federal entities--some intact and some in part--and 180,000 
employees into the newly created U.S. Department of Homeland Security 
(DHS). According to the legislation, the Department's mission is (1) to 
prevent terrorist attacks within the United States, (2) to reduce the 
vulnerability of the United Sates to terrorism, and (3) to minimize the 
damage and assist in the recovery from terrorist attacks that do occur 
within the United States. Created as part of the national response to 
the horrifying terrorist attacks on New York and the Pentagon on 
September 11, 2001, DHS is the single most ambitious and sweeping 
bureaucratic initiative undertaken by the federal government to protect 
Americans against future terrorist threats.
    As we all know the purpose of this hearing is to ``flush out'' the 
powers, roles, and responsibilities of the Department's new CIO in the 
wake of Secretary Chertoff's Second Stage Review. More specifically, 
the I hope we will consider what direction the Department's new Office 
of Intelligence & Analysis (OIA) should take on as it moves forward. I 
am very interested in probing the specifics of the Secretary's plans 
for intelligence analysis and to obtain input about this critical 
mission area. Further, I hope the testimony and questioning will 
provide me and my colleagues with a greater understanding of how the 
Department can best leverage available intelligence resources--from 
both within the Department and the wider intelligence community--in 
order to generate intelligence ``products'' that are relevant to the 
Department's overall homeland security effort. Those products should--
at a very minimum--help identify threats to both American lives and the 
nation's critical infrastructure.
    Before closing, I feel it is important to say a word or two about 
The Department of Homeland Security FY 2006 Budget which includes more 
than $30.8 billion in net discretionary spending--a 4.7 percent 
increase over FY 2005. In total, with mandatory and fee-based programs, 
the DHS budget for FY 2006 IS $40.6 billion. More specifically a few 
areas worth mentioning are:

Strengthening Border Security and Interior Enforcement
        <bullet> Customs and Border Protection will receive $5.95 
        billion in direct funding to strengthen border security with 
        additional personnel, technology and infrastructure including 
        1,000 new Border Patrol agents and $270 million for 
        construction including $35 million to complete the San Diego 
        Border Infrastructure System and $35 million for other 
        infrastructure needs within the Tucson Sector. Consistent with 
        CBP's proposed consolidation, the appropriators combined all 
        CBP Air assets into a single appropriation. The bill provides 
        approximately $400 million in this appropriation, including $14 
        million for covert aircraft and $14.8 million for Northern 
        Border Airwing.
        <bullet> Within Immigration and Customs Enforcement (ICE, the 
        bill provides a total of $3.9 billion in direct appropriations 
        and fees. Significant increases in funding were provided for 
        detention beds ($90 million), Special Agents ($42 million), 
        fugitive operations teams ($16 million) and Immigration 
        Enforcement Agents ($9 million).

Increasing Overall Preparedness and Response
        <bullet> The FY 2006 Appropriations Act provides $4.0 billion 
        for a Preparedness Directorate to enhance coordination and 
        deployment of preparedness assets facilitate grants and oversee 
        nationwide preparedness efforts supporting first responder 
        training, citizen awareness, public health, and critical 
        planning functions to build capacity, protect critical 
        infrastructure, and strengthen cyber systems. Grant funding 
        provided through this Directorate includes $1.155 billion for 
        high-density urban areas, $550 million for basic formula 
        grants, $400 million for law enforcement terrorism prevention 
        grants, $655 million for firefighter assistance grants and $185 
        million for emergency management performance grants.
        <bullet> The Federal Law Enforcement Training Center will 
        receive $282 million to train federal law enforcement personnel 
        and construct additional training facilities to accommodate the 
        increased number of Border Patrol and Immigration Enforcement 
        Agents that need to be trained.

Enhancing Technology and Detection Capabilities
        <bullet> The Appropriations Act provides a total of $5.9 
        billion for the Transportation Security Administration, 
        including $443 million for explosive detection technology. as a 
        result of this legislation, the funding to support the Federal 
        Air Marshals was transferred to TSA as proposed in the Second 
        Stage Review recommendation.
        <bullet> The Science and Technology Directorate (S&T) is funded 
        at $1.5 billion, which includes $110 million for counter man 
        pads research. The bill also provides $23 million for the 
        National Bio Agrodefense Facility (NBAF) and consolidates 
        research and development funds within S&T.
        <bullet> The Domestic Nuclear Detection Office is funded at 
        $318 million to better secure the nation from radiological and 
        nuclear threats.

Strengthening Department Assets and Operations
<bullet> FY2006 Appropriations provides a total of $6.8 billion for the 
U.S. Coast Guard including $933.1 million of the Coast Guard's 
Integrated Deepwater program.

    Ms. Lofgren. I will simply say that Mr. Thompson and I are 
very pleased to have both witnesses here today, and we are 
enthusiastic about the new leadership represented by Mr. Allen. 
I will say that he has a challenge before him. I think he is 
well aware of it.
    In large measure much of the last 3 years was not used 
well, and we are way behind from where we should be. In 
particular, I am concerned that we have yet to see a completed 
national asset database that accurately and systematically 
identifies our Nation's critical infrastructure. We have not 
prioritized the tasks ahead of us. In the last 3 years, in our 
failure to accomplish many of these important tasks, we have 
also alienated many of our partners, both in State and local 
government, and clearly in the private sector where we need 
cooperation.
    So, I look forward to not only hearing Mr. Allen today as 
well as Mr. Ben-Veniste, but working with him in the year 
ahead, because it is absolutely essential that we clean up the 
mess that we have here and that we do that as a team so that 
the Nation will be better protected.
    I would ask unanimous consent to put my entire statement 
into the record.
    Mr. Simmons. Without objection, so ordered.
    [The information follows:]

             Prepared Opening Statement of Hon. Zoe Lofgren

    In July, as part of the Department of Homeland Security's Second 
Stage Review, Secretary Chertoff announced the creation of a new Chief 
Intelligence Officer, who would lead a new Office of Intelligence & 
Analysis. As we now approach the third anniversary on the creation of 
the Department of Homeland Security, it is fitting that we focus of 
attention to such an important developments like how this Department 
handles intelligence issues and challenges.
    Like Mr. Thompson, I am pleased to have Mr. Charles Allen and Mr. 
Richard Ben-Veniste here today to discuss these developments and to 
help us obtain a greater understanding of what roles the CIO and his 
office will or should play on a going forward basis.
    I strongly concur that the Department--and the various intelligence 
units located within its legacy agencies--could contribute valuable 
information to the nation's intelligence efforts and could prove to be 
a valuable conduit for such information to state, local, and tribal law 
enforcement officials.
    I say could, however, because I am cognizant of how the Information 
Analysis and Infrastructure Protection Directorate quickly lost its way 
after the Department's creation and how that Directorate has struggled 
to carve out a meaningful mission for itself ever since.
    IAIP has been adrift for far too long, and I welcome the changes 
Secretary Chertoff is introducing. I believe these changes represent a 
fresh opportunity to get things right. Before we can understand where 
the new CIO and the office he will lead should be going, however, I 
believe that it is crucial to understand where IAIP has been.
    Congress intended IAIP to be the nation's foremost intelligence 
analysis and integration center that would collect, analyze, and 
disseminate intelligence information about potential terrorist threats 
to our nation. Indeed, the need for a homeland-specific intelligence 
effort was one of the primary rationales for the Department's creation.
    The Bush Administration, however, had other plans, and removed this 
function, not once but twice, first to the Terrorist Threat Integration 
Center--the TTIC--and finally to the new National Counterterrorism 
Center--the NCTC--last year.
    In so doing, the Administration left behind an office stripped of 
its once broad assessment responsibilities and incapable of completing 
even the most basic of homeland security tasks.
    For example, we have yet to see a completed National Asset Database 
that accurately and systematically identifies our nation's critical 
infrastructure.
    We need such a database in order to help prioritize risks so we can 
direct appropriate resources to harden facilities against terrorist 
attack.
    Although the vast amount of our nation's critical infrastructure is 
in private hands, moreover, we also have yet to see the development of 
a policy to encourage property owners to share sensitive but 
unclassified information with the Department--a policy that respects 
not only private sector concerns about competitiveness and liability 
but also the public's right to know.
    We need such a policy if we truly hope to secure the homeland--
something that cannot be accomplished without involving both first 
responders and private stakeholders in that effort.
    Likewise, it is still unclear what seat the Department has at the 
NCTC table.
    In order to have real information sharing, we must have a 
Department that not only can move information up the chain to the wider 
Intelligence Community but also down from the federal level to our 
state, local, and tribal partners.
    I suspect that Secretary Chertoff's plans for the new Chief 
Intelligence Officer and Office of Intelligence & Analysis will set the 
Department on a new, more effective course. I hope that that course 
will help address these outstanding items.
    That course should include a defined intelligence mission that 
supports the Department's efforts to protect lives and secure critical 
infrastructure, that seeks to boost the participation of the private 
sector as part of its work, and finally that raises the profile of the 
Department within the wider Intelligence Community.
    To meet these goals, the Department must clearly delineate what 
powers the new Chief Intelligence should have to direct a unique 
intelligence mission. It must develop an office architecture that 
allows for effective coordination of the intelligence analysis effort 
across the Department, and it must develop useful intelligence products 
that are not duplicative of the work already being performed by other 
intelligence agencies.
    To get there, we need specifics. I look forward to hearing from all 
of the witnesses this afternoon about what roles the CIO and the office 
he will lead should play, what powers they should have, and what 
direction they should be taking. I also hope to hear from you how this 
Committee might help advance these objectives.

    Mr. Simmons. The Chair now recognizes the Chairman of the 
Subcommittee on Terrorism, Human Intelligence, Analysis and 
Counterintelligence of the House Permanent Select Committee on 
Intelligence, the distinguished gentleman from California, Mr. 
Cunningham for an opening statement.
    Mr. Cunningham. Thank you, Mr. Simmons. I am saddened that 
my good friend Mr. Boswell is in the hospital. Ms. Lofgren 
tells me it is not serious, and he will be back with us. He is 
a good friend.
    Charles Allen, we have known you for many, many years, and 
I can't think of a better person that could be the Chief 
Intelligence Officer, and we are glad to have you before us, 
and the other witness, to learn a few items.
    If I was to look out into the audience and ask the 
audience, what about the CIA or the FBI, they have a pretty 
good idea in mind of what and picture of what they are supposed 
to do. But, unfortunately, I think when you say Homeland 
Security intelligence, it is not well known or well defined on 
what their implementation is, what their disciplines are. And 
it is important to know that addressing their plans terrorism 
overseas is important, but we also need to know what are their 
plans on terrorists entering the shores of the United States 
itself. I think there lies basically the definition that we are 
looking for and the coordination of that.
    Mr. Chairman, I thank you for hosting today's hearing, for 
working jointly with the HPSCI Subcommittee on Terrorism, Human 
Intelligence, Analysis and Counterintelligence. As you know, 
better coordination and integration of our intelligence law 
enforcement function is critical to protecting the American 
public in the post-September 11 world. We must do all we can to 
ensure the Intelligence Community and the Department of 
Homeland Security share information and fuse their efforts in 
protecting the homeland. And I emphasize share their 
information.
    There are three areas that I would like to focus on, Mr. 
Allen. One is the training aspect of the people that we have, 
and that it is across the board the same. The other is the 
infrastructure, to make sure that you have the facilities, the 
scifs and the things that you need. Third is to make sure that 
the coordination--when you take Coast Guard, Customs, Border 
Patrol, how do you put into their minds now that they have an 
intelligence function instead of being just a border patrolman; 
how do you put that to where they can transfer that to the 
Department of Homeland Security and get it to the right people 
and get it to the target itself?
    I want to thank Chairman King and Chairman Simmons for 
agreeing to the joint subcommittee hearing on the role of the 
DHS Chief Intelligence Officer, information-sharing 
relationship, and make sure it is right. I thank him for 
working with my full committee Chairman Mr. Hoekstra to make 
this a reality.
    The Department of Homeland Security Information Analysis 
Directorate mission was overtaken by events. He was going to be 
everything. He was going to control everything. But then the 
creation of the Terrorist Threat Interrogation Center, we call 
it TTIC, and the National Counterterrorism Center. 
Understanding that the DHS was no longer going to be the 
clearinghouse for the fusion of terrorist information, 
Secretary Chertoff launched a review of DHS's organization. 
Basically, Mr. Allen, where are you going to go from here now 
that the responsibilities are divided, and how are you going to 
do it? That is why we are here today.
    What brings our two subcommittees today together is 
obviously the intelligence restructuring within the Department 
of Homeland Security in one individual, the Chief Intelligence 
Officer, responsible for coordinating all the intelligence 
functions within the DHS. Mr. Allen, you are the person. They 
had written in there, it says, ``Mr. Allen, you are the person 
on the hot seat.'' I would like to think, Mr. Allen, you are 
the guy. You are the person that is going to make it happen, 
not on the hot seat, because we are going to be right there on 
that seat with you to try to make sure it goes right. How will 
you consolidate and improve the DHS relationship? What about 
better leverage with the Intelligence Community?
    Mr. Chertoff made a good choice in selecting Charlie Allen 
as Chief Intelligence Officer. Our committee knows Mr. Allen 
very well and looks forward to working with him.
    All of these things I am going to submit for the rest of 
the record, but I listened this morning to part of the hearing 
where former Speaker Newt Gingrich spoke, and he talked about a 
subject that I believe is the right way to go. The government 
should be getting the information, getting the intelligence and 
passing as much information as they can down to the local 
districts, i.e., New York, i.e., Baltimore, and the local 
districts make those decisions, right or wrong, based on the 
information.
    It is also the local government's responsibility to let 
them know how valid they feel that that information is before 
they can make those acts. But someone in Washington can make 
that determination, can be totally wrong, but yet it is the 
people at the local level that could not benefit from that 
decision. I feel that that is important.
    In this hearing I hope we go forward in looking to the ways 
we are going to improve, and not that we can't talk about New 
York or we can't talk about the Baltimore tunnel, but ways in 
which Mr. Allen is going to make this system better and make it 
safer for homeland security and how you are going to work with 
the other departments.
    Mr. Chairman, I would like to submit the rest of this for 
the record, because there are about 10 pages, and I don't want 
to go through it.
    [The information is maintained in the committee files.]
    Mr. Simmons. Without objection, so ordered.
    Mr. Simmons. We are honored to be joined by the 
distinguished Chairman of the full Committee on Homeland 
Security, Mr. King of New York, and the Chair recognizes Mr. 
King.
    Mr. King. Thank you, Chairman Simmons. I will be very 
brief.
    I want to commend Secretary Chertoff for his appointment of 
Mr. Allen. This is an appointment which is going to be 
extremely beneficial to the Department of Homeland Security. 
Mr. Allen has a very tough job ahead of him not just in the 
actual mechanics or implementation of establishing the 
intelligence apparatus in the Department of Homeland Security, 
but also, as we have discussed, the whole idea of creating a 
culture within the Department where it speaks with one voice 
and also with where the intelligence is properly used and 
assessed.
    As far as the issues involving New York and Baltimore, Mr. 
Allen and I have discussed that. I am convinced those matters 
have been resolved and certainly worked out as far as the 
future is concerned. I look forward to working with him. Again, 
I wish him well, and I commend Chairman Hoekstra and Chairman 
Cunningham for working with Chairman Simmons in putting this 
committee together. I look forward to the testimony.
    Thank you.
    Mr. Simmons. I thank the Chairman.
    The distinguished Ranking Member of the full Permanent 
Select Committee on Intelligence has joined us, the 
distinguished gentlewoman from California Ms. Harman. We yield 
to her for an opening remark.
    Ms. Harman. Thank you, Mr. Chairman and all the other 
chairmen and chairwomen sitting up here, and hello, Charlie. I 
hope your foot is better. I have been instructed to rush 
through this because our next witness has to leave by 4:30, and 
he is a good friend as well.
    Let me just say briefly I have a unique vantage point, 
perhaps because I serve on both committees; I am Ranking Member 
on the House Intelligence Committee. I have applauded the 
vision of DHS Secretary Chertoff in making certain finally that 
the intel function of his Department works. He has hired the 
right guy. Now the right guy has got to get traction and become 
what he can be, which is the integrator across the community 
for accurate, timely and actionable threat information.
    We had what I would call two meltdowns in the last 2 weeks. 
I don't think DHS was the kind of player in that that it needed 
to be. I am just hoping we will hear from a very, very capable 
man how he is going to make this whole thing work better. I 
would like to say work excellently very soon. Our security 
depends on it.
    Thank you, Mr. Chairman.
    Mr. Simmons. I thank the distinguished Ranking Member.
    In accordance with the discussion prior to the conduct of 
this hearing, we agreed that we would limit opening statements 
to those who are Chairs or Ranking Members of the requisite 
committees. Other Members can insert an opening statement in 
the record, and we will reserve questions for members. They 
will have 5 minutes to ask in order.
    Mr. Reyes. Mr. Chairman, I have a statement for the record 
on behalf of Congressman Hastings, our Ranking Member, if I can 
just insert it for the record.
    Mr. Simmons. Without objection, so ordered.

           Prepared Opening Statement of Hon. Alcee Hastings

    I am pleased that we have Mr. Allen and a distinguished panel of 
outside witnesses to discuss the challenges facing intelligence 
programs at the Department of Homeland Security in the wake of the 
Department's ``Second Stage Review.''
    Mr. Allen, I would like to congratulate you on your nearly 50 years 
of service in the Intelligence Community. In your most recent job, as 
the Assistant Director of Central Intelligence for Collection, you were 
responsible for developing collection strategies to tackle our toughest 
intelligence challenges. I commend you for your success in that job, 
and have confidence you will continue to make a positive impact as the 
DHS Chief Intelligence Officer. I'm sure I speak for all of my 
colleagues when I say that we want to work with you closely to help you 
succeed.
    Your work will be especially important, because the effective 
management of intelligence across DHS is hindered by a number of 
difficult challenges:
        <bullet> First, the Department must create a ``culture of 
        intelligence.'' DHS's thousands of law enforcement agents and 
        security officers do not see themselves as intelligence 
        collectors. They need training to appreciate how information 
        they gather at a border crossing or an airport can support 
        strategic intelligence.
        <bullet> Second, the CIO must ensure effective access to 
        information within the Department, across federal agencies, and 
        by state and local consumers. Recent incidents in the New York 
        subway and the Baltimore tunnels highlight the need for better 
        transparency within the intelligence and homeland security 
        communities.
        <bullet> Third, DHS intelligence products and advisories must 
        be detailed and timely enough to inform actionable security 
        measures at the local level.
        <bullet> Fourth, the CIO must coordinate DHS component 
        organizations' intelligence capabilities and requirements--
        despite having no formal budget or programmatic authority over 
        their personnel or activities.
        <bullet> Fifth, the CIO must ensure that intelligence supports 
        the protection of critical infrastructure, particularly since 
        the Second Stage Review concluded that the Office of 
        Information Analysis should be separated from the Office of 
        Infrastructure Protection.
        <bullet> Sixth, the CIO must manage the hiring, training, 
        career development, and retention of intelligence personnel 
        across the Department.
        <bullet> Seventh, the CIO must secure better physical 
        facilities for intelligence staff. It is appalling that 
        intelligence staff work in shifts to avoid overcrowding.
                I would note that, on April 21, Chairman and I wrote to 
                Secretary Chertoff urging that he make improvements to 
                DHS's physical plant and IT infrastructure. From what I 
                can see, few changes have been made since we sent out 
                letter.
        <bullet> Eighth, the CIO must improve IT infrastructure and 
        database access so analysts can examine all available threat 
        information.
        <bullet> Ninth, and finally, the CIO will have to partner with 
        other agencies to surmount turf battles that hinder the 
        effective and timely sharing of information.
    I think I've given Mr. Allen a full agenda of topics to address, as 
have others of my colleagues, and I'm sure he has come with his own 
list of topics to address. I look forward to hearing his plans and 
strategies, and those of our second panel.
    Thank you.

    Mr. Simmons. I also note that there are some Members 
present who are not members of the subcommittees, but are 
members of the full committees. I would ask unanimous consent 
that they be allowed to ask questions.
    Hearing no objection, that will take place.
    Also our first witness is Mr. Charlie Allen, who was 
appointed Assistant Secretary for Intelligence and Analysis and 
Chief Intelligence Officer of the Department of Homeland 
Security in August of 2005 by President Bush. In this capacity 
he is responsible for intelligence support to DHS leadership, 
the Director of National Intelligence and to State, tribal and 
local governments and to the private sector.
    Prior to his appointment, he served as Assistant Director 
of Central Intelligence for Collection and chaired the National 
Intelligence Collection Board, which ensured that intelligence 
collection efforts were integrated and coordinated across the 
Intelligence Community.
    He has served with the CIA from 1958 until his appointment 
to DHS, receiving numerous intelligence awards along the way.
    We all welcome our distinguished first witness Mr. Allen. 
Thank you. The floor is yours.

    STATEMENT OF CHARLES ALLEN, CHIEF INTELLIGENCE OFFICER, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Thank you, Mr. Chairman. Chairman King, Chairman 
Simmons, Chairman Cunningham, Ranking Member Lofgren and 
Ranking Member Harman, thank you for your kind words, and thank 
you for inviting me here to discuss the role of the Chief 
Intelligence Officer in the Department of Homeland Security. I 
will have a very brief statement, and I have submitted a longer 
statement for the record, if you so agree.
    As you know, I will be the first person to hold the title 
of Chief Intelligence Officer. I feel a particularly strong 
obligation to the Congress, Secretary Chertoff, my peers in the 
Intelligence Community, the Director of National Intelligence 
Negroponte, and the President to make it clear what this 
position can contribute to the Nation's security.
    First and foremost, the Chief Intelligence Officer must be 
the U.S. Government's leading proponent of a vital type of 
intelligence, homeland security intelligence. That is not well 
understood, as I believe some of you have just commented.
    Everyone here understands HUMINT intelligence, signals 
intelligence, imagery intelligence and the other INTs that have 
served our country so well since the organization of the U.S. 
Intelligence Community shortly after the Second World War. For 
a long time, most Americans associated these intelligence 
disciplines and intelligence as a whole with the pursuit of a 
foreign enemy on a distant shore.
    Then came the September 11, 2001, attacks, and those of us 
who were not already aware of its existence caught a glimpse of 
homeland security intelligence in the blinding sunlight of that 
fateful and terrible day. We realized that it is not enough to 
know what our enemies are doing. We must know what they are 
doing to penetrate the air, sea and land approaches to our 
homeland. We must also discern any threats growing from within 
our Nation. Then we must take the knowledge available instantly 
to the men and women at all levels of government and the 
private sector who have the mission and the means to act 
against our enemies before they realize their ends.
    My goal and my role as Chief Intelligence Officer is to see 
that homeland security intelligence, a blend of traditional and 
nontraditional intelligence that produces unique and actionable 
insights, takes its place along the other kinds of intelligence 
as an indispensable tool for securing the Nation.
    The position I know now hold is not the same one that my 
predecessors held. Indeed, it is radically different. First, 
the Secretary intends to rename my organization the Office of 
Intelligence and Analysis, as the Chairman just indicated, 
which will make it clear that I am head of an intelligence 
organization.
    Second, I will serve as the Department's Chief Intelligence 
Officer. That means Secretary Chertoff looks to me first, last 
and always for the intelligence support he needs to lead the 
Department, to better detect and prevent planned attacks on the 
American soil.
    Third, I have the Secretary's mandate to integrate all of 
the Department's intelligence capabilities, not just those of 
the Office of Intelligence and Analysis, responding to 
Congressman Cunningham's interest in that.
    There is one important way in which I do walk in the 
footsteps of my predecessors, serving as the Department of 
Homeland Security's principal interface with the Intelligence 
Community, and with the Director of National Intelligence. One 
of the Department goals is to ensure that the Office of 
Intelligence and Analysis becomes a true peer of other 
Intelligence Community agencies with all the rights, 
responsibilities and respect that that entails.
    Let me turn to the future. My first priority is to support 
the Department's leadership and direction of its operational 
components. Next, DHS intelligence must become fully involved 
in the Intelligence Community and the National Intelligence 
Program managed by Ambassador Negroponte. My third priority 
involves strengthening intelligence support to and information 
sharing with our Federal, State, local, tribal, territorial 
governments, and private sector partners. Finally, I will 
strive to cultivate a rich and new and fresh relationship with 
the Congress. I don't need to tell you that we are in a very 
dangerous period, and I need your continued support, 
objectivity and feedback in order to improve the capabilities 
of DHS intelligence to help secure the Nation.
    The most important challenge we face is a persistent and 
adaptive enemy determined to inflict catastrophic damage on the 
U.S. homeland. Virtually any terrorist attack on the homeland 
that one can imagine must exploit a border crossing, a port of 
entry, a critical infrastructure or one of the other domains 
that the Department has an obligation to secure.
    DHS intelligence must learn and adapt faster than the enemy 
so that our Department, with all its partners in the Federal, 
State and local levels of government and the private sector, 
have the information edge they need to secure our Nation. As 
the Department's first Chief Intelligence Officer, I intend to 
make sure that happens.
    Thank you for the opportunity to address this panel. I will 
be pleased to answer the questions, some of which have already 
been raised.
    Thank you, Mr. Chairman.
    Mr. Simmons. Thank you, Mr. Allen.
    [The statement of Mr. Allen follows:]

                  Prepared Statement of Charles Allen

    I. Introduction
    Chairman King, Ranking Member Thompson, Members of the Committee:
    Thank you for inviting me to discuss the role of the Chief 
Intelligence Officer in the Department of Homeland Security. As you 
know, I will be the first person to hold this title, so I feel a 
particularly strong obligation to Congress, Secretary Chertoff, my 
peers in the Intelligence Community, and the President, to make it 
absolutely clear what this position can contribute to the nation's 
security.
    First and foremost, the Chief Intelligence Officer must be the U.S. 
government's leading proponent of a vital type of intelligence--
homeland security intelligence--that is not well understood.
    Everyone here understands human intelligence, signals intelligence, 
imagery intelligence, and the other ``INTs'' that have served our 
country so well since the organization of the U.S. Intelligence 
Community shortly after the Second World War. For a long time, most 
Americans associated these intelligence disciplines--and intelligence 
as a whole--with the pursuit of a foreign enemy on distant shores.
    Then came the attacks of September 11, 2001, and those of us who 
were not already aware of its existence caught a glimpse of homeland 
security intelligence in the blinding sunlight of that fateful day. We 
realized that it isn't enough to know what our enemies are doing 
abroad. We must know what they are doing to penetrate the air, sea, and 
land approaches to our homeland. We must know what they are doing to 
survey, target, or exploit key assets, symbols of America, and the 
critical infrastructures upon which we depend for our economic 
vibrancy--including the Internet. Then we must make this knowledge 
available instantly to the men and women at all levels of government 
and the private sector who have both the mission and the means to act 
against our enemies before they realize their ends.
    As I said, this kind of intelligence has always existed, even if we 
have not always recognized its value as much as we should. My role--and 
my goal--as Chief Intelligence Officer is to see that homeland security 
intelligence, a blend of traditional and non-traditional intelligence 
that produces unique and actionable insights, takes its place alongside 
the other kinds of intelligence as an indispensable tool for securing 
the nation.

    II. Transition from IAIP to OIA
    Before I tell you in more detail how I propose to do this, let me 
briefly go back in time to the creation of the Department of Homeland 
Security. Congress established the Office of Information Analysis as 
part of the Directorate of Information Analysis and Infrastructure 
Protection, or IAIP. It was one of the only entirely new entities in 
the Department of Homeland Security, and my predecessors had to create 
it essentially from scratch. They built a solid record of 
accomplishment and I owe them a debt of gratitude. I take it as a sign 
of the maturity of the organization that staff members of the Office of 
Information Analysis are publishing a range of intelligence products 
from daily current support to the Secretary to an increasing number of 
bulletins and special assessments on threat-related topics for state, 
local, and private sector customers.
    But the position I now hold is NOT the same one that my 
predecessors held. Indeed, it is radically different in at least three 
important ways. First, the Secretary intends to rename my organization 
the Office of Intelligence and Analysis. This will make it clear that I 
am the head of an intelligence organization. Second, I will serve as 
the Department's Chief Intelligence Officer. That means Secretary 
Chertoff will look to me first, last, and always for the intelligence 
support he needs to lead the Department, and better detect and prevent 
planned attacks on American soil. And I assure you, the Secretary is a 
voracious consumer of intelligence, and he understands how it should be 
used to catalyze, guide, and inform homeland security operations. 
Third, I have the Secretary's mandate to integrate all of the 
Department's intelligence capabilities, not just those in the Office of 
Intelligence and Analysis. That means the Secretary is counting on me 
to marshal all the intelligence and information in Homeland Security's 
component agencies and deliver it to him in a way that he can use to 
make timely, risk-based decisions about how to deploy the Department's 
human and material resources. The Secretary expects me to be a dynamic 
recipient of information. On July 13 he told this committee, ``The 
chief intelligence officer will have the obligation to manage the 
collection and fusion of intelligence throughout the entire 
department.'' To fulfill this mandate will require an even stronger 
degree of integration than exists today.
    There is one important way in which I do walk in the footsteps of 
my predecessors: serving as the Department of Homeland Security's 
principal interface with the Intelligence Community. The Office of 
Intelligence and Analysis will be one of two DHS entities that belong 
to the Intelligence Community: the other is the United States Coast 
Guard. I am aware that the role of the Department in the Intelligence 
Community is not widely understood. For instance, the Department is 
scarcely mentioned in the report of the Commission on the Intelligence 
Capabilities of the United States Regarding Weapons of Mass 
Destruction. That could mean that we have been doing almost everything 
right and there is little to fix. But I am afraid it means that DHS 
intelligence has yet to take its place as a fully recognized member of 
the Intelligence Community. As such, one of the Department's goals is 
to ensure that the Office of Intelligence and Analysis becomes a true 
peer of the other IC agencies, with all the rights, responsibilities, 
and the respect, that entails. Another goal is to make sure that the 
next time it becomes necessary to fix U.S. intelligence--and I hope it 
won't be soon--DHS will be the subject of a chapter on how to do it 
right.
    Before I turn to the future, I want to address one more aspect of 
the past: the union of information analysis and infrastructure 
protection within DHS. I hope nobody takes the separation of these two 
functions as a sign that the original idea of them working closely 
together was a mistake. Far from it. One of the things that make DHS 
unique is its ability to bring together threat streams and 
vulnerability assessments in a methodologically rigorous and action-
oriented way. This practice of mapping threats against vulnerabilities 
is an important part of the DHS intelligence program and we will 
continue to partner intelligence analysts with infrastructure 
protection specialists and dedicated support personnel to better 
understand the terrorist threat to U.S. infrastructure. This joint 
endeavor between the Office of Intelligence and Analysis and the 
infrastructure protection elements will provide a significant 
capability for the Department's new Preparedness Directorate.
    You may wonder: if IA and IP are so good together, why split them? 
I think the Secretary made that clear when he announced his plans to 
reorganize the Department: he wants to raise the profile of both. For 
IA, this means elevation to a stand-alone organization, reporting 
directly to the Secretary, in order to manage the integration of DHS 
intelligence activities that cut across the entire Department. IA and 
IP are like two siblings who have grown up together and who now are 
heading off to bright futures that will be separate but intertwined.

    III. Road ahead
    a. Priorities
    Having covered the past, let me turn now to the future. I will 
start with a brief summary of my priorities, followed by a discussion 
of how I intend to pursue them.
    My first priority is to support the Department's leadership and 
direction of the operational components. Secretary Chertoff and Deputy 
Secretary Jackson have broad responsibilities across a complex and 
multi-functional Department, and I need to keep them fully apprised of 
what's going on in the area of intelligence. This obligation extends to 
integrating the intelligence elements of the Department so as to create 
a unified intelligence culture, improving the flow of intelligence 
information both horizontally and vertically throughout the 
organization, and improving the reporting of intelligence information 
from the Department's operating components and providing actionable, 
relevant analysis back to them.
    Next, DHS intelligence must become fully involved in the 
Intelligence Community and the National Intelligence Program. This 
means being a valued contributor to the overall intelligence effort and 
a trusted recipient of national intelligence information from other 
agencies. As you may know, our unique functional expertise at DHS 
resides in our operational components, and a pool of rich information 
gathered by these components and from our exchanges with state, local, 
and private sector partners. I am seeing first hand how different 
functional perspectives coupled with access to component data yield 
unique analysis and products. DHS's intelligence contribution is its 
ability to act as a nexus for integration and coordination between 
domestic and foreign intelligence. We simply cannot afford delays or 
Obstacles to the rapid sharing of potentially valuable information and 
intelligence from all sources. We need to redouble our collective 
effort, both within DHS and among the Intelligence Community, to allow 
the right people to access the right information, on time, for the 
right customers.
    My third priority involves strengthening intelligence support to 
our state, local, tribal, and territorial government partners. 
Consistent with the Secretary's emphasis on risk-based allocation of 
resources, I will focus on supporting major cities and key 
infrastructure assets, but I also aim to strengthen relationships with 
all our Homeland Security Advisors, local and government partners, and 
the private sector.
    Finally, I will strive to cultivate a rich relationship with 
Congress. I don't need to tell you that we are in a very dangerous 
period, and I need your continued support, objectivity, and feedback in 
order to improve the capabilities of DHS intelligence to help secure 
the nation.
    Now that I have given you the high-altitude view of my priorities, 
let me circle in to give you a more detailed picture of how I intend to 
pursue them.

    Support to Departmental leadership and mission
    In testimony before this panel and its Senate counterpart, 
Secretary Chertoff emphasized that the role of the Department of 
Homeland Security is not just to ``catch the terrorist,'' as important 
as that is. DHS is an all-hazards agency and our constituent agencies 
need support across the full range of their activities. The Office of 
Intelligence and Analysis is prioritizing tasks and improving the focus 
of its analytic workforce to better support the Department's core 
missions of border, transportation, maritime, and infrastructure 
security. Our efforts will wed intelligence even more closely to 
operations.
    As I said earlier, Secretary Chertoff has given me a mandate to 
integrate all DHS intelligence activities. The goal is not to create a 
unitary, top-down, command-and-control structure, but rather to ensure 
that the intelligence elements of the various operating components 
contribute to a unified Departmental intelligence picture of the 
threats our country faces, even as they continue to support the day-to-
day needs of their respective organizations. The U.S. military has 
shown how proud institutions with long and distinguished histories can 
partake of a joint identity even as they retain what makes them 
distinctive and valuable. I believe we can do the same in DHS 
intelligence. We will build a departmental intelligence culture that 
will be more than simply the sum of its confederated parts.
    Prior to my arrival, the Office of Information Analysis prepared an 
intelligence integration plan that was an important input into the 
Secretary's Second Stage Review. I intend to use this plan to identify 
and implement some additional measures that will bring a more corporate 
approach to the DHS intelligence enterprise in such areas as 
requirements, analytic standards--including use of alternative 
analysis, and human capital development.
    I also plan to establish a Homeland Security Intelligence Council 
as my principal forum for discussing intelligence issues of Department-
wide significance, developing a Departmental intelligence strategic 
plan, and driving intelligence component integration. This council, 
which I will chair, will consist of key intelligence officials from the 
various DHS operating components.
    Improving the flow of intelligence information throughout the 
Department is a key goal. I intend to make sure that the intelligence 
information generated by the day-to-day operations of the Department 
gets to intelligence analysts, operators, and policymakers. Likewise, 
relevant Departmental analyses need to get to the Border Patrol agent, 
the Coast Guard cutter captain, and the TSA airport screener in forms 
they can use. The Office of Intelligence and Analysis is developing 
several tools to share information. An Intelligence Production and 
Dissemination Suite will incorporate automated tearline production and 
classification review as well as metadata regimes that comply with 
prevailing Intelligence Community standards and incorporate 
indispensable privacy protections to facilitate delivery of 
intelligence to the users who really need it. Another tool that we are 
exploring would maintain ``smart'' databases and archives for improved 
accessibility and dissemination of finished intelligence products to 
federal, state, local, territorial, and tribal customers, with cross-
matching of security clearance status connected to privacy safeguards 
and cross-cutting dissemination across communities of interest. We are 
also developing an in-house capability to produce high-quality printed 
materials, including guides and analytic products, at all 
classification levels to serve internal and external consumers.
    Perhaps the most important information-sharing initiative we are 
undertaking is a reports officer program designed to extract and 
disseminate the intelligence information generated by the day-to-day 
operations of the Department's frontline elements such as Customs, the 
Border Patrol, and TSA. The Office of Intelligence and Analysis 
currently has a small cadre of reports officers at DHS headquarters 
reviewing operational data and determining its intelligence value. 
Within its first year of operation, this program has disseminated more 
than 1,000 Intelligence Information Reports, or IIRs. The next phase of 
the program will place reports officers in the various DHS component 
headquarters to review information closer to the source. We are also 
considering placing reports officers in DHS component field offices, 
and state and local intelligence fusion centers.
    This program, once fully staffed, integrated with privacy sensitive 
practices, and assimilated with the necessary tools and capabilities 
for information delivery, will exemplify the unique value that DHS 
brings to the Intelligence Community. Our aim is to better identify 
``dots'' that matter for analysts to connect and, working with state 
and local partners, develop trends analysis and context, thereby 
increasing the likelihood that relevant federal, state, or local actors 
will be able to disrupt or mitigate the effects of terrorism and other 
hazards.
    The Office of Intelligence and Analysis is committed to work with 
the Department's Office for Civil Rights and Civil Liberties and the 
Privacy Office to ensure that civil liberties and privacy concerns are 
addressed and protected in operations and information sharing 
activities. This is particularly important with regard to information 
sharing with private sector partners. Certainly, we respect the need to 
ensure privacy protections in any information sharing scheme. As 
Secretary Chertoff has said, ``we must calibrate an approach to 
security that incorporates prevention and protection into our lives in 
a way that respects our liberty and our privacy, and fosters our 
prosperity.'' Thus, the systems, interactions, and relationships we 
build will reflect the prominence of privacy while at the same time 
putting the right information at the right place at the right time.

    Participation in the Intelligence Community
    All of the things that we are doing to improve our support to the 
Department and its leadership also strengthen our participation in the 
Intelligence Community. I will highlight some of the additional 
measures we are taking to ensure that we are a valuable, and valued, 
member of the IC. We will soon begin entering information about our 
analysts in the Analytic Resources Catalog, or ARC, a directory of IC 
analysts searchable by, among other things, areas of responsibility and 
specialization. We are also integrating our best people with other IC 
elements, and simultaneously inviting their best people into our 
organization, consistent with the intent of Congress as expressed in 
last year's Intelligence Reform and Terrorism Prevention Act. This 
includes sending several representatives to the Office of the Director 
of National Intelligence.
    One area I am particularly intent on improving is the use and 
standing of DHS intelligence officer staff representation within the 
National Counterterrorism Center, or NCTC. We are preparing a plan that 
will improve NCTC's access to the homeland security intelligence that 
DHS maintains as well as to our analytic expertise in such areas as 
border, transportation, and maritime security. I have spoken with 
Admiral Redd, the Director of the NCTC, and we agree that DHS has 
valuable information and capabilities to contribute to the NCTC's vital 
mission. As you know, liaison officers assigned to and from other 
Intelligence Community elements are a key to successful collaboration 
and enhance the overall sense of community in our business.
    One important way in which we participate in the Intelligence 
Community is through our management of the National Intelligence 
Priorities Framework's Homeland Security Topic. In addition, we have 
led the requirements process to ensure that this topic reflects not 
only the Intelligence Community's priorities, but also those of our 
federal, state, local and private sector stakeholders. To strengthen 
our role in the Intelligence Community as the principal entry point for 
state, local, and private sector requirements, we will extend to this 
set of partners the automated capability to submit requirements for 
intelligence information.

    Support to state and local governments and the private sector
    The Department of Homeland Security was conceived in the 
expectation that it would marshal the resources of state, local, 
tribal, and territorial governments and the private sector in a way 
that was desperately needed but had never been done. The Office of 
Information Analysis pursued this objective with vigor, and the Office 
of Intelligence and Analysis will continue to do so.
    Everything we do to support the Department and the Intelligence 
Community also strengthens our ability to support our state, local and 
private sector partners. However, I wish to highlight a few additional 
measures. DHS is supporting the efforts of a number of states to create 
and develop state and local fusion centers to support interoperability. 
The Office of Intelligence and Analysis is actively working with state 
and local partners on determining how best to engage with these 
centers. Another initiative responsive to our state and local 
stakeholders is the recent roll-out of a classified version of the 
Homeland Security Information Network, or HSIN. The unclassified HSIN 
is being used in all 50 states to share information between DHS and 
states and some local officials on a range of homeland threat, 
protective, and response issues. We are constantly striving to add 
functionality to both versions of HSIN in response to the needs of our 
state, local, and private partners.

Congressional relations
    I am mindful that to fulfill my obligations to the Department, the 
Intelligence Community, and the Department's state, local, and private 
stakeholders, I will need the support of Congress, including this 
committee, its counterpart in the Senate, and the House and Senate 
intelligence and appropriation committees. I aim to build that support 
in a number of ways. The first, of course, is by speaking with you in 
open sessions such as this as well as in closed sessions when 
appropriate. But if I were to limit myself to hearings, I would be 
doing you and myself a disservice. I believe in the power of bagels and 
coffee to build good working relationships, and I hope I can attract a 
number of you, as well as your key staff members, to our campus in 
Northwest Washington for breakfast meetings to exchange information and 
views. Finally, one of my management goals is to strengthen our 
preparation of budget submissions, and responses to Questions for the 
Record. I want to make sure that you get high-quality submissions from 
us because it is manifestly in our own interest, as well as yours, to 
do so.
    b. Challenges
    I would be remiss if I failed to mention the challenges the Chief 
Intelligence Officer will face in the coming months and years.
    First, we face the challenge of securing our place in the 
Intelligence Community. I hope that by carrying the banner for homeland 
security intelligence, I can help our peers in the IC appreciate the 
unique contribution we make to the security of the nation. I realize 
that this process of winning acceptance must occur in the difficult 
context of a much wider Intelligence Community reorganization that has 
a number of agencies adapting to changing roles and missions. That is 
why we stand ready to work with our fellow agencies to increase mutual 
understanding, strengthen vital partnerships, and build a culture of 
information sharing.
    Many of the initiatives I have outlined above require sufficient 
staff and adequate space. I understand that some on Capitol Hill have 
the impression that we can't fill the billets we have. While perhaps 
understandable, this impression is mistaken. When I assumed my duties 
last month, 94% of the billets in the Office of Intelligence and 
Analysis had an incumbent or an inbound staff member. We are addressing 
these internal issues, and are applying our best energies to external 
challenges as well, with all haste. Our sense of urgency cannot be 
higher.

    IV. Conclusion
    As I conclude, I want to take care not to leave you with the 
impression that all the challenges we face are ones of management and 
resources. The most important challenge we face is a persistent and 
adaptive enemy determined to inflict catastrophic harm on the U.S. 
homeland. Virtually any terrorist attack on the homeland that one can 
imagine must exploit a border crossing, a port of entry, a critical 
infrastructure, or one of the other domains that the Department has an 
obligation to secure. DHS intelligence must learn and adapt faster than 
the enemy so that our Department and all its partners in the federal, 
state, and local levels of government and the private sector have the 
information edge they need to secure our nation. As the Department's 
first Chief Intelligence Officer, I intend to make sure that happens. 
Thank you for the opportunity to address this panel today. I would be 
happy to answer your questions.

    Mr. Simmons. I will begin with one or two questions myself, 
and then I will go back and forth to my colleagues in the same 
order that we began.
    You mentioned a couple of things. First of all, 
traditionally we as Americans have associated intelligence with 
HUMINT, SIGINT, IMINT and the various INTs. We have also 
associated American intelligence with secrecy. We have focused 
our intelligence efforts largely abroad and left law 
enforcement at home to the Federal Bureau of Investigation, 
State and local police activities.
    Now we have the responsibility to secure the homeland, so 
the question is, will we be creating a new secret organization 
that may raise issues of first and fourth amendment rights, or 
will we introduce another INT into the equation, which is 
OPINT, which is open sources of intelligence, which carry two 
benefits: One, it allows us to collect openly and not 
clandestinely within our own borders from publicly available 
information, but, secondly, eliminates the problem of security 
clearances when it comes to information sharing. That would be 
my second point.
    Information sharing is not the culture of the Intelligence 
Community, and yet information sharing must become part of the 
culture of Homeland Security, because if the Federal, State, 
tribal and local entities don't share information, I don't see 
how they can deal with the multiple problems that we face.
    So I would ask you to respond on those two points, open 
sources of intelligence and information sharing.
    Mr. Allen. Well, I am pleased that you raised both of those 
issues, because those are precisely areas where I intend to 
make improvements.
    I worked in that world of great secrecy for quite a number 
of decades, and, of course, much of the information that we 
still receive is highly sensitive and highly secret from the 
traditional foreign Intelligence Community. At the same time, I 
think there has been a slow recognition on the part of the U.S. 
Intelligence Community to recognize the value of open source 
intelligence.
    For example, the 9/11 Commission made a very strong 
statement. The WMD Commission, I think, was even stronger in 
the need for better exploitation of open source.
    During the Cold War, about 1 percent, I think, of our 
National Foreign Intelligence Program went to open source. 
After the Cold War was over, it declined to about a 1/2 
percent. I have been a long advocate to increase that. I do 
believe that our definitions of open source have been too 
narrow. I believe commercial imagery is open source. And one of 
the things that I wish to do in working with the Director of 
National Intelligence Ambassador Negroponte and with the U.S. 
Intelligence Community is to try to enhance that. I think we 
can build a very substantial program of our own within Homeland 
Security, and I certainly intend to try to do that and to come 
back to you with what is needed in terms of resources.
    At this stage Ambassador Negroponte is still sorting out 
how to meet the recommendation of the WMD Commission on open 
source, but he is very committed to it, and so are many of his 
deputies, such as Mary Margaret Graham, who is the Assistant 
Director of National Intelligence for Collection.
    On the second issue, on information sharing, this is a 
somewhat different world for me, but I think that my 
predecessors have laid a good baseline to get information out 
to State and local and the private sector. Secretary Chertoff 
has continued the National Infrastructure Advisory Council, 
which really does have some very prominent people from across 
the sectors of U.S. private sector. There are about 17 sectors 
with which we work.
    We work very hard if there is threat information to ensure 
that the collecting agency, the originating agency, provides 
those terror lines, whether it is from one of the intelligence-
gathering components within DHS which do collect intelligence, 
as well as from the U.S. foreign Intelligence Community.
    I have seen great strides on the part of foreign 
Intelligence Community. Now it is up to us to push that 
information out quickly and timely to those who may be under 
threat. And, believe me, there are threats. As the President 
said the other day, there have been threats disrupted, several, 
up to 10 and more, and including 3 in the United States.
    So, we intend to share and to work it hard.
    Mr. Simmons. I thank you for that response, and I note that 
if the open source intelligence is produced organically within 
your shot, it is your call as to how it is disseminated.
    The distinguished Ranking Member.
    Ms. Lofgren. Thank you, Mr. Chairman.
    In terms of the sharing of information, we have been 
apprised of the Homeland Security Information Network, which 
was designed, envisioned for other things, to strengthen the 
flow of real-time threat information to State, local and 
private sector partners at the sensitive but unclassified 
level. We just recently heard that the Joint Regional 
Information Exchange System, which is a major information-
sharing initiative that includes intelligence directors from 
New York, Washington and Los Angeles, recently announced that 
they would no longer be cooperating with the Homeland Security 
Information Network.
    I am interested in what your view of this development is, 
and, if you think that it is a problem, what processes you 
might use and how we might assist to address the rift.
    Mr. Allen. Thank you, Congresswoman.
    On the Homeland Security Information Network, that is a 
much broader capability that has been developed with far 
greater capacities than the JRES, the law enforcement network 
that began, I believe, informally back in 2002.
    The Homeland Security Information Network really includes a 
flow of information not just to law enforcement, but to 
Homeland Security, to State and local at all levels, as well as 
to law enforcement, and certainly out to the private sector. So 
this is something I believe that the HSIN, as we call it, as it 
continues to strengthen, will become the overarching 
capabilities.
    This is not something with which I have great familiarity, 
having just arrived 3 weeks ago, but it is my understanding 
that JRES did very fine information sharing informally among a 
variety of law enforcement agencies, a volunteer effort, but it 
did not include the broader community, nor does it have quite 
the information handling capacities as the one developed by 
Homeland Security.
    I think this will work its way out. I know that our 
Director of Operations, General Broderick, Matthew Broderick, 
is going to be talking to the Congress on this issue.
    Ms. Lofgren. All right. I am interested, as we discussed 
recently, in the use of technology in connecting information, 
and there are some elements of the Department that are--to say 
technologically challenged would be kind.
    I am wondering how you as the Chief Intelligence Officer 
will make intelligence information available to the 
intelligence units that exist within the Department's legacy 
agencies, some of which do face these tremendous, as we 
discussed yesterday, technology challenges, and whether you 
have some thoughts to create a common database or other 
repository, and, if you do, what your thoughts are in terms of 
protecting legitimate privacy issues so that only those who 
have a need to know actually do have access.
    Mr. Allen. Thank you very much for that question. I agree 
with you. Individually within, for example, the Customs and 
Border Protection Agency or component, they do have some very 
remarkable databases and information-handling tools, and I 
believe also does the immigration and enforcement component. At 
the same time, we do not have the kind of integrated 
centralized databases that are prevalent out in other broader 
traditional Intelligence Communities. We have to, obviously, do 
a much better job of building interoperable and interconnected 
databases. I will get to the privacy issue in a moment. And the 
problem is to rapidly and quickly share data among all 
elements, all components, and back to DHS headquarters where I 
oversee intelligence.
    One of the things I am doing, I brought a senior CIA 
officer in to look at information management so we can 
understand how the information flows much better. That is one 
thing I have done. Also we are going to work with the new CIO 
brought in by Mr. Chertoff, Secretary Chertoff, Scott Sharbo. I 
think we are going to get there, but we have a long way to go, 
and that is a relevant question. Six months from now I will 
have a much better idea on how to respond.
    Ms. Lofgren. Fair enough.
    Thank you, Mr. Chairman.
    Mr. Simmons. Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Allen, we have to be efficient 100 percent of the time. 
The terrorists only have to be lucky once. If you look at 
France and England, Japan, other places, they haven't had that 
luxury that we have.
    The key in the military is training, and you fight like you 
train. My concern is how do you take Border Patrol, Customs, 
Coast Guard, local law enforcement, tie them all together, now 
make them have a segment of intelligence within that 
organization, and then be able to transmit that intelligence to 
the targets that need to get it?
    We had an example in San Diego that two law enforcement 
agents saw a train running on a track, all by itself, no 
engineers, nobody in it. They boarded that train and come to 
find out that was standard procedure, that the engineers went 
to eat their lunch until the next shift showed up, but they 
left the train running. The local newspapers chastised those 
law enforcement agents for boarding that train.
    I think that is the kind of initiative, if you see 
something out of the ordinary, that you do go in and you are 
not afraid to make a mistake. So training, I think, is key in 
how to do that.
    I also look at one of the problems that we have is with 
your infrastructure itself. The question that was asked, how 
are you going to do it? My answer is, you come to us, Mr. 
Allen. You need a scif, you need the infrastructure, to right 
now where you have three people for every chair and they have 
to rotate, that is not good. We need to provide you with the 
infrastructure for the people and also the technology that with 
this fire hose amount of technology and information that you 
get and the number of people that you have to put out the 
information to, it is our job to make sure that you have the 
right equipment that you need. So training, infrastructure is 
important
    And then the last thing I would think is dissemination of 
the information. Just think about the information that comes in 
from our satellites, just millions and millions and millions of 
megabytes, and how do you sift that, and how you get it to the 
right people? Then you have inputs from all these other 
agencies, and how do you do that?
    Have you ever been to Colorado, to the local base there 
that coordinates everything?
    Mr. Allen. Yes, sir.
    Mr. Cunningham. That--I would recommend that every 
intelligence officer visits that site, because, to me, those 
sections work in harmony, they work with all the services 
together, they work with law enforcement, and they not only can 
take the information, they have the authority to act and be 
proactive to execute an order to eliminate a terrorist they 
see, overseas or in country. I would think that would serve in 
every city if we had a site like that. You know which one I am 
talking about, to take a look at.
    One last thing is sometimes our own laws hurt us. You 
remember COSCO? Not right down here around the corner where you 
go to buy your fries and beans, but China Ocean Shipping 
Company. We knew they had shipped in AK-47s. We knew they were 
shipping in illegals. We knew that we couldn't talk about it, 
that they actually had spies operating within COSCO, and they 
were going to let them have Long Beach Naval Shipyard to 
control every single container that came into that area. We 
didn't mind them being a tenant, but we didn't want them to 
control it, and we could not talk about the spy that was under 
investigation.
    So the opening statement, sometimes we can't tell the 
public exactly why we think that there is a danger or tell the 
media, but we can let the local law enforcement agents know 
that there is a problem, and a credible problem, or at least 
what the level of that credibility is, so that they can react.
    Mr. Allen. Thank you very much, Congressman.
    On the training, we are deficient in training our 
intelligence officers and deficient in training the officers 
within the various components, because many of them are, as you 
say, law enforcement backgrounds at the borders, at the 
airports. We obviously have to make them understand the 
information and data they are acting upon operationally also 
contained some very valuable information that needs to be 
brought back and put into threat stream data and disseminated. 
We are going to do that. I just met with the CBP this morning, 
and we talked precisely about this and the need for far more 
active training.
    As far as facilities are concerned--and I intend to develop 
a training program and set some training standards across the 
DHS components, just as Ambassador Negroponte is setting 
training standards across the traditional U.S. Intelligence 
Community.
    Second, on facilities, we obviously are short of 
facilities. My own office does not have this. I have submitted 
a plan to Deputy Secretary Jackson, and I will press that.
    On the third issue, as to dissemination, you are absolutely 
right. One of the things I have asked to do for fiscal year 
2007 is start looking and see what a communication center will 
cost for my office in order to disseminate intelligence 
promptly.
    Thank you.
    Mr. Simmons. Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    Again, welcome, Mr. Allen.
    I think every day about whether I am adding any value 
around here. Some days yes, lots of days no. It strikes me that 
your challenge is going to be to add value to a lot of people 
and efforts that are generating a huge number of dots, some of 
which are good dots and some of which are bad dots. How do you 
do that on a daily basis? It seems to me the most important 
thing you will have to do is to manage.
    So my question is, how will you manage the information that 
is all over DHS, that is generated by TSA, by the different 
border functions? You just mentioned CBP. How will you manage 
the information that comes from local and regional and State 
law enforcement? How will you pull this together so that, for 
example, our threat warning system and our decisions about 
which targets to harden are as good as they can be?
    Finally, how will you manage the relationships that you 
obviously already have, that is one of your big advantages, 
with the NCTC and with the Director of National Intelligence? 
How can you become, by tomorrow morning, the best possible 
manager of intelligence?
    Mr. Allen. Thank you very much, I think. Your questions are 
spot on. That is where I think there has been lack of real 
focus, and that is how to bring together all these disparate 
components and the intelligence and the information and 
intelligence-related data they collect on a daily basis. And 
they collect a lot of it. A lot of it they act on just very 
tactically, but there is vast--I won't say there is vast, but 
there is a great amount of information that does not get fully 
disseminated or used as part of trends and patterns and threat 
streams.
    As I said earlier, we are going to study all those 
information flows, because I have no blueprint to go from at 
this stage on how to integrate that and to bring it to an end, 
to fuse it, and to bring it into an analyzed form. It is a huge 
and big problem for all of us, and it has not been done. It 
must be done, because the Federal air marshals have information 
that is never collected, never disseminated. We know that. It 
is not just TSA or ICE. And we know at the State and local 
levels there is also additional data that needs to flow out and 
from the private sector.
    I am going to put together a very strong management team. I 
have a Deputy Director here behind me, Mr. Foust, for mission 
integration, so he is going to have to carry a lot of that 
burden. I am going to bring in a principal deputy, who I hope 
will be ``Mr. Outside,'' who will work with the State and local 
and private sector, an individual with that kind of background. 
I am going to bring in a senior intelligence officer from the 
CIA to increase the analytic quality that we have, to make sure 
that we provide far better analysis and sharper analysis than 
we have today. And, as I said earlier, working with the CIO of 
DHS and a new information management officer that is going to 
look at all this, we are going to put together our very best 
effort. But since we do not have a blueprint, our first is to 
build an architecture, an information architecture, that does 
not exist today across all of DHS. We must do that, and I 
intend to give it my level best effort.
    Ms. Harman. Thank you.
    Mr. Simmons. Mr. King of New York.
    Mr. King. Thank you, Chairman Simmons.
    Mr. Allen, the Intelligence Reform Act we adopted last year 
provided the President would designate an individual as the 
program manager responsible for the information sharing across 
the Federal Government. What exactly will your role be with 
respect to the governmentwide information-sharing manager?
    Mr. Allen. Thank you. Mr. John Russack is in charge of the 
Information Sharing Environment Program Office. Mr. Russack, a 
former Navy captain, was my deputy for 2 years, so I have a 
very personal relationship.
    DHS plans to appoint as deputy to his program office an 
individual, a very senior individual, to take on that 
responsibility. In my view, and I attend personally the PCCs, 
the coordinating efforts that are undertaken under the 
leadership of the NSC on information sharing, what I see is 
required by the program office are not just a vision and not 
just plans, but specific deliverables and timelines.
    I just attended a meeting at the White House where I made 
that point, and that is the direction in which we are heading, 
because we have to make this program office operate effectively 
and efficiently. It has had a slow beginning, and I think it is 
on the right course. So I intend to participate fully in that 
truly governmentwide information-sharing effort.
    Mr. King. Mr. Allen, I think you agree with me on this. I 
think it is important for Homeland Security to establish more 
of a presence with local governments as far as exchanging 
information, working with local law enforcement. Are you in a 
position yet to tell what plans you have as far as extending 
DHS out into local communities and working with various law 
enforcement officials around the country?
    Mr. Allen. That is one of my highest priorities, as you 
know, Mr. Chairman. New York City, we obviously have to develop 
a very close relationship. This is a city that has been 
attacked, thousands of people have died, and it has an 
extraordinary capability under Commissioner Kelly, and, of 
course, its intelligence unit is 400 people strong under Mr. 
David Cohen.
    It is my intention to a put an officer there full time in 
the future up in New York City. Mr. Cohen is sending a 
delegation down shortly to talk with me about strengthening our 
relationships. I intend to visit New York City and learn from 
New York City the way it handles the kind of information that 
is truly nontraditional intelligence and how it functions.
    We are also looking at Los Angeles. We are working very 
closely with the Los Angeles Police Department. I do not have a 
full blueprint at this time, but I intend to develop one. Some 
of the major cities which we know have been mentioned as 
targets by foreign terrorist groups in particular, we have to 
develop a richer and closer relationship.
    Mr. King. Thank you. I yield back.
    Mr. Simmons. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Congratulations, Mr. Allen, on your appointment. Knowing 
your work from my 5 years on the Intelligence Committee, it 
gives me a sense of comfort that you will be going into a 
situation in DHS that really needs to focus the ability to 
analyze and gather and collect the kind of information that is 
unique to only DHS. I mention that because, as you probably 
know, I spent 26-1/2 years with the Border Patrol before coming 
to Congress, and as a chief, I always was careful to tell my 
agents that they were collectors of information, collectors of 
intelligence, and we routinely shared that information with the 
Intelligence Community.
    So my question for you is, how do you plan to 
institutionalize, standardize, ensure that all of the potential 
intelligence that is out there, that is unique to DHS, and I am 
talking about Border Patrol agents in the many remote areas of 
our border, our Customs and Immigration inspectors at the ports 
of entry that come in contact with millions of people every 
day, that have the potential to see and report and gather what 
is commonly known as pocket litter, that that is somehow 
consolidated and brought together for the analysis that you 
spoke about. How do you plan to do that?
    The other question I would have is in terms of budget, 
because all the plans in the world are not going to help you if 
you don't have the budget authority to be able to carry them 
out. Currently all the intelligence staffs other than the 
Office of Information Analysis and Coast Guard, receive 
direction, personnel and funding from their respective 
component organizations, TSA, Customs and Border Protection, 
ICE, all the different entities. So do you feel that you ought 
to have budget authority in these particular areas to make sure 
that your vision and your plans are fully and completely 
implemented and integrated in a coordinated way in DHS?
    Mr. Allen. On the first question of trying to ensure that 
those come out the pointed end of the spear, that they 
understand they are collectors, and they understand that they 
must get that data together and get it back to other 
components, a lot is sent back today. There is a changing 
culture, I think, certainly in the CBP where you worked on the 
border.
    But building a unified intelligence culture inside DHS is 
going to take time; it is going to take enormous energy on the 
part of all concerned, and a lot of goodwill. We have to 
improve our training, as Congressman Cunningham stated. We have 
got make sure that they know, because their perceptions are 
very different. They have a few seconds to make a decision on 
whether to permit this person to cross the border or not. Is 
the person's credentials in good order? Does he have a 
legitimate passport? It is a very rapid decision. A million 
people, something like that, enter the United States every day. 
It is a vast effort. There are 317 ports of entry around the 
country. So we have to truly begin to work at that.
    We have to give training to those people out in the various 
component elements, and we have to give them guidelines. I 
don't see any great guidelines that flow, particularly from my 
office, out to the various elements.
    I am forming a Homeland Security Intelligence Council where 
the heads of the intelligence elements will sit. We meet this 
Friday at our first meeting, it is called the Homeland Security 
Intelligence Council. I told Congresswoman Harman about it the 
other day. This is going to be a decision-making body where the 
people coming and the heads of those intelligence elements have 
to speak to what they can and cannot do and if they have any 
resource shortfalls.
    So from my perspective, we are going to strengthen those 
intelligence elements. If they don't have enough reports 
officers to report the data that is collected, I am going to 
tell them, you need more enforcement officers, and here is how 
many you need. When it gets to the budget issue, I am going to 
evaluate whether I need additional authorities.
    At this stage I think I have the needed authority to make 
changes, to be a change agent at DHS over the next year, but I 
will come back to you if I need additional authority.
    Mr. Reyes. Thank you.
    Mr. Simmons. The gentleman from Michigan Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    One of the reasons I really wanted to come today was to see 
Mr. Allen again, somebody who spent 47 years with the CIA and 
decided to retire, and here he comes back again. Thank you for 
committing yourself to public service. Apparently 47 years ago 
you were one of the original spy kids, is that right, very 
young when you started this operation? Thank you for doing 
this. I can't think of a better person to be there.
    A couple things you said have concerned me. I just want to 
go over a little bit in your testimony here. You talked about 
the DHS intelligence offices yet to be fully recognized as a 
member of the Intelligence Community, and you want to become a 
true peer with all the rights, responsibilities, respect that 
that entails.
    I certainly understand and appreciate the desire to do 
that. The one red flag that goes up for me is in order to do 
that, you have got to get bigger, and you got have to more 
people, and you are going to drain more resources. I am very 
concerned that everybody wants to be in the intelligence 
business today. Just about every agency out there wants an 
expansion and has requested Congress for an expansion of 
reports officers or different directions that they want to take 
in intelligence.
    I am very concerned that we are creating something that was 
not supposed to be this big, DHS, and even making it bigger. I 
am hoping you can explain to me what value-added that you have 
added to the intelligence service and what the office was 
originally intended for, which was to collect and disburse 
information produced by its host agencies.
    Mr. Allen. Thank you.
    First, on the full member to take our place along with the 
traditional Intelligence Community, it doesn't mean you have to 
expand into a large organization necessarily. Treasury, 
Department of Energy, the Bureau of Intelligence and Research 
over at the Department of State are not large entities, but 
they have to be effective and efficient.
    In this case, as far as our intelligence, the added value 
is that not only do we focus on both foreign and domestically 
acquired information, because there is a lot of information 
collected by the 10 components of DHS which have intelligence 
or intelligence-related activity. That information is not 
available, and when I met with Ambassador Negroponte the other 
day, this is one of the things that he spoke about, where he 
expected far more input. When I met with Admiral Scott Redd 
over at NCTC, this is exactly where he said DHS needs to help 
him and help the National Counterterrorism Center analyze 
information on a broad scale, because this is a war without 
borders, as we have spoken before. What may be planned in 
Waziristan, may occur in Detroit, Michigan. So that is where we 
are working, because they have to cross the borders. They have 
to come by land, sea or air in order to commit the kind of 
murder that they did on September 11, 2001.
    So, from my perspective, not only do we have a lot of added 
value, and I don't know how much I have asked for, modest--you 
all agreed to some modest increases in staff and resources in 
fiscal year 2006. The President just signed the bill yesterday. 
We will have some probably additional requests from Secretary 
Chertoff in the fiscal year 2007. We are looking at our needs 
at that stage.
    What I want to do is be far more efficient. Actually, it is 
not the size of my office. When you lookout at the components, 
there are hundreds and thousands. As Congressman Reyes says, 
there are thousands of people out there willing to collect and 
help provide information on people who wish to do us harm; 99.9 
percent of the people coming into the country do not want that, 
but there is that percentage that does, and every day, every 
day, there are incidents, quite a number of them, where people 
are refused entry or they are detained as a result of the kind 
of work that goes on at our ports of entry, 317 of them.
    So, I think we bring a lot of that in value, and it is 
recognized. It is recognized by every element of the U.S. 
Intelligence Community. I was at NSA yesterday with Lieutenant 
General Keith Alexander, and he spoke very strongly of the need 
for cooperating with DHS in a number of areas.
    Mr. Rogers. I certainly appreciate that.
    If I may follow up, Mr. Chairman, we could be far more 
efficient. We have been talking about interoperability with IT 
since I have been in Congress 5 years ago. We don't have that. 
It doesn't exist. With all these machinations of new 
intelligence bureaus and expansions here and the DNI that wants 
700 people, I would hope that we could come back to a committee 
pretty shortly and talk about how we have all of these agencies 
having the ability to talk to each other with an IT system. It 
can't be that difficult. I take that back, it is difficult. But 
we have spent a lot of money making it possible. I would hope, 
and I know you are the guy to do it, and I think you are a 
change agent, if somebody can get in there and get their arms 
around it, I think it is you. We are counting on you to do the 
right thing. I appreciate it.
    Mr. Simmons. We thank the gentleman for his comments, and 
note for the record that he did serve in the FBI for a number 
of years. Thank you.
    The gentleman from Maryland Mr. Ruppersberger?
    Mr. Ruppersberger. Mr. Allen, I think you are the right 
person. You are a pro. We need to get somebody in a position 
who has experience, and you have that.
    I think when you are looking at what we are doing with 
respect to protecting our homeland, you have to talk about 
short term and long term, the long term being the systems that 
we set up and the people that we have. But I would like to get 
into the short term, because al-Qa'ida or terrorists are not 
going to wait for us to be ready, and we have to really do what 
we have to do right away to deal with some issues, and I would 
like to get into some specifics right now.
    An example would be the recent terrorist scare in New York 
highlights some serious information-sharing failures. 
Intelligence agencies failed to develop a common position on 
the reliability of the threat reports, and local officials got 
contradictory assessments from FBI and the Department of 
Homeland Security and other agencies.
    We just had an incident yesterday in Baltimore. I am not 
sure where at this point--maybe you might be able to comment, 
if you can, about what was the system that we used in order to 
first get the information and disseminate the information so 
that local officials can make decisions, they are first 
responders, so they can make decisions based on what they have 
received and the teamwork approach.
    So what must be done to improve the process for assessing 
reliability of intelligence reports and for sharing real-time 
information with local officials?
    Secondly and I think this is an even more relevant 
question, what happens, using New York and Baltimore as an 
example, in terms of information sharing, when there is a 
conflict between the FBI and the Department of Homeland 
Security? What mechanism is in place to decide what information 
should be used to make that decision? There has to be one 
person, one boss, one individual, I think, that has to make 
that decision. It is not about turf, it is about protecting our 
homeland.
    Mr. Allen. Thank you. Those are very good questions.
    As far as New York and Baltimore, what I would like to do 
is come back in a classified hearing and give you details on 
what happened in each case, and certainly I am prepared to do 
this, and I know that probably other agencies that participated 
in this would be pleased to do as well.
    I don't know of any significant disagreement between the 
FBI and Homeland Security in either of those cases and would be 
glad to explain how we did share, in a classified environment, 
information right from the beginning of the New York threat on 
the 27th, and as we began the issue with the subways back last 
week.
    We worked very closely with the FBI, we worked very closely 
with the Homeland Security authorities in New York and also in 
Maryland yesterday. We worked with the Joint Terrorist Task 
Force that is run by the FBI. We also believe in each of those 
cases that what New York City decided to do and what the 
Maryland Transit Authority decided to do were prudent measures. 
We know that there is always some uncertainty in all 
intelligence activities, so I don't know of any great 
differences that I have with anyone on those. In fact, I 
believe the Governor of Maryland said it worked rather 
seamlessly yesterday.
    Mr. Ruppersberger. I would like to get to some specifics. I 
mean, that is past, and we need to evaluate what occurred so we 
can do it better the next time. But we don't know when another 
incident will be.
    What I would like to know, though, is do we have a system 
in place; if, in fact, there is a conflict between Homeland 
Security and FBI, what is the mechanism to resolve that? Is 
there one person in charge? If we don't have that type of a 
system, we are not going to be as effective as we should. Are 
you aware of that system, if it exists today; and, if not, what 
do you plan to do about it?
    Mr. Allen. I believe in most cast cases there will not be 
any substantial differences, and, of course, in this case we 
worked very closely with the National Counterterrorism Center, 
which is run by Admiral Redd.
    Mr. Allen. As far as someone being overall in charge, I 
believe that working with--certainly with Secretary Chertoff 
and with the Director of National Intelligence, we can 
certainly make sure that there is a very seamless way. One the 
things I have asked to do--
    Mr. Ruppersberger. Let me just--
    Mr. Allen. Lessons learned, we are going to learn from this 
and come back with probably some proposal that we can discuss 
with you
    Mr. Ruppersberger. I have one other question maybe to get 
to what I am looking for. How do the current Department of 
Homeland Security missions differ from, say, the FBI as it 
relates to coordinating information and giving that information 
to the locals?
    Mr. Allen. Well, the FBI obviously has a real 
responsibility if there is a threat as to coordinate and share 
that information with Federal and local officials and with the 
private sector if there is a direct threat to a particular 
sector. So there are different missions here. They have to be 
closely coordinated and aligned, and I think we can do a better 
job of doing that
    Mr. Ruppersberger. I would just try to--you are right on. 
We need to create a system that works. There needs, in my 
opinion, to be more focus on the type of information when there 
is conflict, because I can't see you; because as far as the 
incidents that have occurred in New York and Baltimore that 
will continue to occur, and we have to make sure that we are 
all on the same team. Good luck.
    Mr. Allen. I agree with you, sir. Thank you very much.
    Mr. Simmons. I thank the gentleman.
    I remind the members that we have a second panel. We are 
hoping to get the second panel up before 4:30, maybe even 
before then. But I also would mention for the record again that 
if there are some detailed questions on either of the specific 
events, the New York event and the Maryland event, we are happy 
to hold closed briefings on that subject.
    And now the Chair recognizes Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And, Mr. Allen, we 
want to thank you for being here. I will try to make my 
comments and questions as brief as possible.
    First, I just want to comment briefly on information 
sharing and just to give you some feedback from my other 
committee work or direct contacts with law enforcement. I want 
to make you aware, and I know you probably already are, law 
enforcement with respect to information sharing is not 
impressed at all right now with either the degree of contact 
they have had with Homeland Security or their information that 
they are getting from Homeland Security. I understand that the 
HSIN network is kind of a work in progress, but it is not 
nearly as robust as it needs to be.
    With respect to my question, I know my colleague Mr. Rogers 
already addressed this as well, but I raise it again. The--
right now I know that Homeland Security obviously wants a seat 
at the table in the Intelligence Community, but the feeling 
basically of the Intelligence Community is that Homeland 
Security really doesn't have anything to bring to the table, 
and-- although it could at some point if it is developed. Right 
now they have nothing to bring to the table. So the question 
is, what will Homeland Security bring to the table with respect 
to the Intelligence Community?
    The other thing is right now, obviously Homeland Security 
has a tremendous workforce, 180,000 employees under Homeland 
Security. Everything from people in Customs, Border Patrol 
area, and they have the capability to be great gatherers of 
intelligence and could bring a great deal to the table with 
respect to developing raw intelligence. So my question is, what 
does Homeland Security, from the intelligence perspective--hat 
do you see them bringing to the table, and are you ready to 
utilize all the talents and the workforce within Homeland 
Security to actually generate the raw intelligence?
    Mr. Allen. Well, I think we already have earned our place 
at the table with the traditional Intelligence Community, and 
speaking with Ambassador Negroponte, speaking with the heads of 
other agencies, and speaking with the head of the National 
Counterterrorism Center, our lanes in the road, I think, are 
getting very well defined. They may have not been defined as 
clearly in the past as they should have.
    One of the things we do bring to the table is, of course, 
first and foremost a tactical intelligence. As I said earlier, 
as Congressman Reyes knows, every day we find people trying to 
penetrate this country in a variety of ways, and it is due to 
the components of DHS that they are turned away. And they act 
upon information, upon databases that are built by the 
Intelligence Community. So it is very active tactically.
    In the infrastructure area, one of our great issues, and we 
work very closely with the Assistant Secretary For 
Infrastructure and Protection. His people look at all the 
sectors and look at potential vulnerabilities of those sectors 
and how to keep the country safe.
    So I believe that we can contribute significantly already 
and will contribute more in the future
    Mr. Langevin. I have just a couple of minutes. Let me ask 
you this: What obligations should or will the Chief 
Intelligence Officer have to the Director of National 
Intelligence, and what controls should or will the DNI have 
over you, if you haven't addressed that already?
    Mr. Allen. I did not address that specifically.
    Obviously the DNI--and one of the things that I found that 
has not been done is that we--in the past there was not a 
document that spelled out the intelligence efforts of DHS in 
regard to the Director of Central Intelligence. So I have asked 
the Intelligence Community Directorate be set up to design my 
relationship with them.
    Our relationship, I think, will just continue to grow 
stronger in the days ahead as we work very jointly together. We 
bring a lot to the DNI. DNI wants us as part of his community. 
He--we submit our budget through the DNI. Our budget is 
submitted. It is a classified budget through the National 
Intelligence Program. He has to--we respond to DNI budget 
guidance as well as to the guidance that may come from 
Secretary Chertoff. We work for Secretary Chertoff, but we also 
have a dual reporting chain. I think both of us understand that 
relationship quite well.
    Mr. Langevin. I hope you will work with this committee and 
rely on us as a resource.
    Mr. Allen. I have been 3 weeks on the job so far, so I am 
learning
    Mr. Simmons. The Chair recognizes the gentleman from 
Massachusetts Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Allen, good luck. We have met all of your predecessors 
here, and each of them has unfortunately run afoul of the 
difficulty that exists in your position. You have three jobs. 
One is to coordinate the 10 intelligence agencies within the 
Department of Homeland Security. Then you have to coordinate 
with the CIA, the FBI and other agencies. And you have to 
coordinate with the State and local governments. The State and 
local governments are now saying as of 2 weeks ago they don't 
want to coordinate anymore with you. They are not happy. They 
are not satisfied. This is 2-1/2 years into the creation of the 
Department.
    One of your predecessors Mr. Hughes told us that the 
relationship between the CIA and the FBI was going to be 
dependent upon his good personal working relationships with 
them, which from our perspective is completely unsatisfactory. 
It must be structural, and it must be guaranteed that that 
information flow, whether they want it to flow or not.
    And going back to the first point as to how effective your 
agency can be with any of these other entities goes to your 
coordination within your own agency of the other 10 
departments. Now, you have told us here today that there is no 
database which links all 10 intelligence units within your 
Department. Lacking that technology linkage, how is the 
information, Mr. Allen, collected by analysts and officers of 
these agencies shared by your office? Do you have daily 
meetings of all 10 intelligence chiefs of the 10 departments to 
substitute for the fact that there is no common database?
    Mr. Allen. Well, let me get back to the broader issue of--I 
do not pretend to--I have great personal relationships with 
both the FBI and with CIA, but I will not, I will not say that 
I will make all problems go away. I think we have to develop 
our lanes in the road, and that is the reason I am developing 
this Intelligence Community directive to spell out the lanes in 
the road for DHS with Ambassador Negroponte and the 
Intelligence Community writ large. If we don't do that, if we 
don't put it in writing and get a clear understanding, we are 
not going to succeed. And I can have a personal relationship 
with Gary Ball at the FBI or with Scott Redd over at the NCTC, 
and I don't think that is very--I think it may be useful now 
and then, but it is not an efficient way of operating.
    Mr. Markey. Okay. I have two questions for you then, Mr. 
Allen. The first question is do you have a common conference 
call, each day, with all 10 intelligence chiefs within your 
Department so that, absent that common database, you do have a 
common conversation so that you are able to make your own 
assessment each day of whether or not, in fact, there has been 
an adequate gathering and assessment of threats against our 
country?
    Mr. Allen. We bring together every day all critical 
elements including my office with the rest of the Intelligence 
Community. The data that flows--
    Mr. Markey. Are on you that call each day?
    Mr. Allen. Not every day, but my senior officials are.
    Mr. Markey. Who do you require from the 10 intelligence 
branches within DHS to be on the call? Who do you require for 
that; in the absence of a common database, who do you require 
to be on that call each day? By the way, is there a call?
    Mr. Allen. We have them every day and several times a day 
with the Intelligence Community as well with elements of 
Homeland Security. As I said earlier, I have just formed a 
Homeland Security Intelligence Council where we are going to 
meet on a regular basis.
    Mr. Markey. Are you going to meet each day?
    Mr. Allen. I don't know if we will meet every day. When I 
ran the National Intelligence Collection Board, we didn't meet 
every day. We met 4 or 5 days a week.
    Mr. Markey. The President gets briefed every day on 
intelligence. Are you going to get briefed each day from the 10 
intelligence chiefs so that we have that common conversation?
    Mr. Allen. I get briefed at 0630 hours every morning, and 
it brings in all the data. We have the Homeland Security 
Operations Center. We have officers there that develop the 
morning briefings for me and Secretary Chertoff.
    Mr. Markey. Will you be on the call, Mr. Allen, with the 
other 10 intelligence agencies?
    Mr. Allen. As required, but not every hour, not every day.
    Mr. Markey. Are you on a conference call each day with your 
counterpart at the CIA and FBI? Do you have that conference 
call each day with them?
    Mr. Allen. I am usually in contact every day, not 
necessarily always a conference call. If we have a threat, we 
have a conference call immediately with not only the White 
House, NCTC, FBI and other elements as required, including the 
Coast Guard.
    Mr. Markey. See, from my perspective, Mr. Allen, in the 
absence of a common database, which you don't have, you are the 
database, and if you are not on the conference call with the 10 
intelligence chiefs within your own Department, or with your 
counterpart at the CIA or the FBI, then we are years, I mean 
literally years, from having an intelligence-gathering and 
assessment capacity at your agency. You are the person who must 
enforce on a daily basis this level of connection within your 
agency and with the other intelligence-gathering agencies. And 
if it doesn't happen--and you have a fabulous record, Mr. 
Allen, but we have already gone through this. Even though the 
title has changed, your predecessors have each, unfortunately, 
come afoul of the incredible bureaucratic resistance to the 
kind of change which you have to be the catalyst to effect.
    Mr. Allen. We obviously are going to--
    Mr. Simmons. Time having expired, and we think this line of 
questioning is very interesting and very important, but we are 
trying to accommodate Mr. Ben-Veniste as well.
    The Chair recognizes Ms. Jackson-Lee.
    Ms. Jackson-Lee. I thank the Chairman and Ranking Member 
and the combined Chairman and Ranking Member of the 
Intelligence Committee. I think these are helpful episodes, and 
I think that we should continue them.
    First of all, Mr. Allen, it is worthy to thank you for your 
years of service and to echo maybe what you already know, that 
I think your challenge is extremely difficult. We hold these 
hearings and these questions on the backdrop of probably one of 
our more severe intelligence gaps or failures, and that, of 
course, is 9/11. We have attempted to improve, and I certainly 
will not dismiss the efforts. I am concerned as to whether or 
not we have gotten the results.
    So let me ask you hopefully three questions that you may 
have answered, but please accept my apology. One, I would like 
to hear again how you coordinate between the Ambassador 
position and, of course, the Director of the CIA, Director 
Goss, and the FBI. I just still find that to be a complex 
relationship.
    Then I would be interested in how you plan to harness the 
flow of information specifically to the far reaches of the 
Department, Border Patrol for example, the Transportation 
Security Administration, ICE. How are these disparate groups 
spread out in many far places going to be coordinated?
    And then lastly I think we have had an excellent laboratory 
over the last month that frightened me, frankly. We had the 
mayor of New York make large statements about trouble on the 
transit system, rightly so, for a local official. He has a very 
able police chief. And then to be disparaged, that is my term, 
not yours, or at least to be, if you will, not backed up by our 
own Homeland Security, I assume, intelligence, combined group 
of individuals. Forget about what the local official look like 
and the politics there. We looked like we were in disarray. 
Secondary we had another opportunity with the recent tunnel in 
Baltimore, and again, there was a local statement. It seemed 
that we, at that point, either for politics reason--political 
reasons said, you know, you were right to go ahead and do you 
what you did.
    Help me understand how we can lessen those kinds of 
calamities, because the American people will lose faith in our 
abilities if we can't find the synergism of intelligence or 
relationships when we are actually trying to disseminate 
information to protect.
    So I have given you three questions, and I hope you can 
answer them in that order.
    Mr. Allen. Thank you. Let's first talk about Ambassador 
Negroponte, Director Goss and, at the FBI, Mueller. Obviously 
they collect information on a daily basis. We also obtain 
threat information through our own intelligence components. Any 
time there is a threat that comes out, we coordinate that very 
carefully among those agencies. I have a direct--nd I don't 
want to say that a personal relationship solves everything, but 
my office, and we are very much in contact with the Bureau, 
with the NCTC as well as with CIA and Ambassador Negroponte, we 
keep informed on all critical issues.
    Ms. Jackson-Lee. So are you talking to them every single 
day.
    Mr. Allen. We don't talk every day, but I said when there 
is a threat. We certainly make--Ambassador Negroponte and I 
discussed the New York threat together. We certainly have 
discussed it repeatedly with the CIA as well as with the FBI. 
So there is a very close coordination that occurs throughout 
the traditional and nontraditional Intelligence Communities. It 
does work, and it works, I think, very well.
    How to harness, that question has been asked repeatedly, 
the 10 components that have intelligence or intelligence-
related activities. They put out a lot of data, and they 
disseminate a lot of data. It is not that we have it all 
interoperable and interconnected. We are going to work to do 
that. But as far as harnessing that information, that 
information flows every day, 7 by 24, into the Homeland 
Security operation centers where we have officers. We work 
overnight, and every morning I am briefed, as well as the 
Secretary and the Deputy Secretary on important developments 
that occur. And there are developments every day.
    Ms. Jackson-Lee. A regional director of the Transportation 
Security Administration in Los Angeles has access to important 
intelligence.
    Mr. Allen. We can reach out to any element including those 
along the border as required through the Homeland Security 
operation center, and the data can flow to my officers for 
fusing and threat analysis. Absolutely. And we do it on a daily 
and regular basis. If someone--if we think someone is on an 
airplane coming into the country, we have ways, of course, 
making sure that that information is available.
    And then thirdly, in Baltimore and New York, we will have a 
closed hearing, and you will hear that we worked very closely 
with both the city of New York as well as the officials in 
Maryland.
    Ms. Jackson-Lee. Mr. Chairman, thank you.
    Just my last sentence to you, Mr. Chairman, is we have a 
great panel, and we have to respect their time. My only 
question to you, or at least my concern, if we can have that 
opportunity again. But the point is I don't think we will at 
least feel comfortable that there is that synergism, that 
interoperability, using a term that we use in this committee, 
that there is good reach between these three different 
disparate responsibilities. And I hope that we will we will 
pursue that further. Thank you.
    Mr. Simmons. We will.
    On the specific issues of Maryland and New York, there will 
be a closed briefing where we can get into more detail. But 
earlier in this hearing, with this panel, the issue of 
information sharing and the culture of intelligence was 
discussed in some detail. It is a huge problem not just for 
individuals on this committee and for the Chief Intelligence 
Officer of Homeland Security, it is a problem for the whole 
country, and it is a problem we have to overcome.
    And I want to thank Mr. Allen for coming today. We thank 
him for his very distinguished service to the country. And I 
would suggest in the next year and a half to 2 years, he has a 
great opportunity to make a great contribution to the security 
of this Nation, and we wish to work as partners with him in 
that enterprise. We thank you very much.
    Mr. Allen. Thank you. Mr. Chairman, I look forward to 
coming back and giving you reports on the progress we are 
making.
    Mr. Simmons. Thank you.
    The second panel of the day will involve testimony from Mr. 
Richard Ben-Veniste, a former 9/11 Commissioner and member of 
the 9/11 Public Discourse Project. Mr. Ben-Veniste is a partner 
in the Washington law firm of Mayer, Brown, Rowe & Maw and 
served as the sixth assistant U.S. attorney, chief of the 
Watergate Task Force of the Watergate Special Prosecutor's 
Office, and special outside counsel for the Senate Committee on 
Governmental Operations from 1976 to 1977. From May of 1995 to 
June of 1996, he was chief Minority counsel of the Senate 
Whitewater committee.
    I want to thank you very much, Mr. Ben-Veniste, for your 
patience in being here today. We are mindful that you have 
other obligations that may take you away, and so we thank you 
for your distinguished service to our country, and we look 
forward to your testimony.

STATEMENT OF RICHARD BEN-VENISTE, MEMBER, 9/11 PUBLIC DISCOURSE 
                            PROJECT

    Mr. Ben-Veniste. Thank you, Mr. Chairman.
    Chairmen Simmons and Cunningham and Ranking Member Lofgren 
and distinguished members of the Homeland Security and 
Intelligence Committees, it is an honor to appear before you 
today. I welcome the opportunity to testify today regarding 
Secretary Chertoff's decision to make information analysis a 
priority within the Department of Homeland Security, and to 
create a Chief Intelligence Officer to provide intelligence 
information in support of the Department, and to ensure it is 
shared with State and local partners.
    The 9/11 Commission did not make specific recommendations 
on the structure of the Department of Homeland Security. The 
Commission did make strong recommendations with respect to 
information sharing across the government. The Commission did 
make a strong recommendation with respect to unity of effort in 
the Intelligence Community. My comments about DHS today will be 
informed by these principles.
    Upon taking over at DHS earlier this year, Secretary 
Chertoff initiated a comprehensive evaluation of the 
Department's organization, operations and policies that he has 
called his Second Stage Review. As a result of his review, the 
Secretary proposed a number of structural changes to the 
Department. One of those changes is to designate the Assistant 
Secretary for IA as the Department's Chief Intelligence Officer 
and to elevate IA so that it reports directly to the Secretary. 
The Secretary provided no more detail, however, as to how IA 
would be strengthened, how it would be able to ensure a common 
operational picture within the Department any more than it can 
today, or how it would serve as the primary connection between 
DHS and the Intelligence Community as a primary source for 
State, local and private sector partners without a clear 
mandate as the Department's lead intelligence entity.
    We offer the following suggestions. First, the Chief 
Intelligence officer should be confirmed by the Senate. Under 
the Secretary's proposed reorganization, there is no official 
below the level of Secretary with departmentwide intelligence 
responsibilities who would be confirmed by and accountable to 
Congress. For various reasons, not the least of which is 
accountability, the lead intelligence official of DHS should be 
a Senate-confirmed position.
    Second, the Chief Intelligence Officer needs a clearly 
defined role and priorities. The Secretary should prioritize 
IA's responsibilities and clearly articulate the role of IA as 
the Department's lead intelligence entity. For instance, the 
Secretary should make it plain that the Chief Intelligence 
Officer is his principal intelligence advisor, that IA is 
responsible for providing a common operational picture across 
all of the Department's intelligence components, and that IA is 
to be the Department's primary point of contact with the newly 
established Director of National Intelligence and NCTC.
    Third, the Secretary must demonstrate support for the Chief 
Intelligence Officer. Simply making the Chief Intelligence 
Officer directly report to the Secretary will be nothing more 
than a cosmetic change if the Secretary does not support this 
new official. That support means sufficient staff and 
resources, but also the less tangible forms of bureaucratic 
support that so often determine who can get things done in 
Washington. One way of communicating this support would be to 
make clear the IA's role and authority in budget and personnel 
matters. In other words, when the Chief Intelligence Officer 
meets with the FBI or CIA Director, it must be implicit that he 
has the backing of the Secretary in order for him to be taken 
seriously.
    Fourth, the Chief Intelligence Officer should have 
additional authorities vis-a-vis the Department's intelligence 
components. In order to coordinate and ensure unity of effort 
among the numerous intelligence elements of the Department, the 
Chief Intelligence Officer will need some combination of 
budget, personnel and tasking authorities over their 
activities. Whether the best model is the DNI or the Under 
Secretary for Intelligence at DOD, the Chief Intelligence 
Officer cannot be expected to be any more successful in 
coordinating the Department's various intelligence elements 
simply because of a new title. It is the Chief Intelligence 
Officer's role to make sure that information from all 
intelligence offices in the Department of Homeland Security is 
not only analyzed, but also disseminated to those who need it.
    We have the highest regard for the newly appointed Chief 
Information Officer, Charlie Allen. He has extraordinary 
experience in the Intelligence Community, but he faces a 
formidable challenge. Recent reporting suggests that 
communication and collaboration between the Department and the 
State Homeland Security officials nationwide is not what it 
should be. It is not up to us to say who is right and wrong. 
Suffice it to say there is a problem, and the Chief Information 
Officer has the responsibility to address it. DHS cannot expect 
State and local officials to want to team up with headquarters 
if it does not provide reliable and consistent leadership.
    The recent controversy over the credibility of the threat 
to New York city's subway system is a case in point. On October 
6, the New York Police Department reacted to information from 
the FBI which suggested that the system was at risk of being 
attacked in the next few days. DHS, however, took a different 
position and evaluated the information as less than credible. 
Because I have no way of evaluating whether DHS and FBI 
simultaneously provided their basis for challenging the 
informant's credibility along with the specifics of the alleged 
plot, it is difficult, if not impossible, to determine whether 
there was a breakdown in information sharing, or whether there 
was simply a difference of opinion regarding the credibility of 
the underlying information. This is critical. If there is not 
sufficient information sharing, simply providing information 
about a potential threat could cause more problems than it 
solves.
    A priority for the Chief Intelligence Officer must be to 
strengthen the relationship between DHS and its customers. 
State and local police need to know that the information they 
provide to DHS will be properly integrated and not ignored. 
They need to know that DHS will provide the necessary 
information to them in turn.
    It is essential that the Chief Information Officer at DHS 
work closely with the program manager for information sharing. 
In our final report we recommended that the President lead a 
governmentwide effort to create a trusted information network. 
We are pleased that the information reform law, intelligence 
law, rather, created a new position to coordinate this effort. 
Six months ago the President appointed John Russack as the 
first program manager. We understand that Mr. Allen is forging 
a working relationship with Mr. Russack to help him overcome 
the cultural and bureaucratic obstacles to information sharing. 
This is encouraging news.
    In closing, Mr. Chairman, Secretary Chertoff's recognition 
of the primacy of information intelligence analysis and sharing 
is critical to a successful homeland security strategy. On a 
personal note, I have high regard for Secretary Chertoff's 
capacity and energy, and I have met with him privately on 
occasions at some length, and I am certain that he gets it. His 
appointment of Mr. Charlie Allen to the key position of Chief 
Intelligence Officer is a positive sign. Our Nation has a 
strong interest in Mr. Allen's success. We urge Secretary 
Chertoff to provide Mr. Allen the authorities that he needs to 
get the job done.
    I have a longer statement which I wish to submit for the 
record with the Chairman's permission
    Mr. Simmons. Without objection, so ordered.
    [The statement of Mr. Ben-Veniste follows:]

               Prepared Statement of Richard Ben-Veniste

    Chairman Simmons and Cunningham, Ranking Members Lofgren and 
Boswell, distinguished members of the Homeland Security and 
Intelligence Committees: it is an honor to appear before you today.
    I welcome the opportunity to testify today regarding Secretary 
Chertoff's decision to make information analysis a priority with the 
Department of Homeland Security, and to create a Chief Intelligence 
Officer to provide intelligence information in support of the 
Department and to ensure it is shared with state and local partners.
    The 9/11 Commission did not make specific recommendations on the 
structure of the Department of Homeland Security.
    The Commission did make strong recommendations with respect to 
information sharing across the government.
    The Commission did make strong recommendations with respect to 
unity of effort in the intelligence community.
    My comments about DHS today will be informed by these principles.
    The Homeland Security Act of 2002 established a Directorate for 
Information Analysis and Infrastructure Protection (IAIP) run by an 
Under Secretary, and within that directorate an Office of Information 
Analysis (IA) headed by an Assistant Secretary. IA was supposed to have 
been the primary intelligence shop within DHS, and it had a broad 
statutory mandate. However, nearly all now agree that IA has not 
fulfilled that mandate.

                    Findings of the 9-11 Commission

In its Final Report, the 9/11 Commission concluded:
        The Homeland Security Act of 2002 gave the under secretary for 
        information analysis and infrastructure protection broad 
        responsibilities. In practice, this directorate has the job to 
        map ``terrorist threats to the homeland against our assessed 
        vulnerabilities in order to drive our efforts to protect 
        against terrorist threats.'' These capabilities are still 
        embryonic. The directorate has not yet developed the capacity 
        to perform one of its assigned jobs, which is to assimilate and 
        analyze information from Homeland Security's own component 
        agencies, such as the Coast Guard, Secret Service, 
        Transportation Security Administration, Immigration and Customs 
        Enforcement, and Customs and Border Protection. The secretary 
        of homeland security must ensure that these components work 
        with the Information Analysis and Infrastructure Protection 
        Directorate so that this office can perform its mission. 
        (Chapter 13, p. 427)
    There are several reasons why IA has not been a success. First, 
IA's mission has been clouded from the start. Soon after DHS was 
created, the Administration set up the Terrorist Threat Integration 
Center (TTIC) outside DHS to analyze the terrorist threat--to ``connect 
the dots''--thus raising questions about what IA's primary role was 
supposed to be. (TTIC was folded into the National Counterterrorism 
Center [NCTC] pursuant to the Intelligence Reform and Terrorism 
Prevention Act, based on the recommendation of the 9/11 Commission.)
    Second, IA has not had the status, resources, or support necessary 
to be a real player in the intelligence community.
    Third, IA has been unable to ensure unity of effort among the 
Department's own various intelligence units (in terms of information 
sharing, common protocols, tasking and collection strategy, resource 
decisions, etc).
    The bottom line is that IA has had broad statutory 
responsibilities, fewer authorities, minimal support, and little 
respect.
    Upon taking over at DHS earlier this year, Secretary Chertoff 
initiated a comprehensive evaluation of the Department's organization, 
operations, and policies that he has called his ``Second Stage 
Review''. As a result of his review, the Secretary proposed a number of 
structural changes to the Department. One of those changes is to 
designate the Assistant Secretary for IA as the Department's Chief 
Intelligence Officer and to elevate IA so that it reports directly to 
the Secretary (rather than through an Under Secretary). When he 
announced his proposed changes in public remarks on July 13, 2005, the 
Secretary stated:
    Today I am announcing that the Assistant Secretary for Information 
Analysis will be designated as the Chief Intelligence Officer. The 
Chief Intelligence Officer will head a strengthened Information 
Analysis division that will report directly to me. This office will 
ensure that intelligence is coordinated, fused, and analyzed within the 
Department so that we have a common operational picture. It will also 
provide a primary connection between DHS and others within the 
intelligence community--and a primary source of information for our 
state, local, and private sector partners.

          Unity of Effort in Information Sharing and Analysis

    The Secretary provided no more detail, however, as to how IA would 
be ``strengthened,'' how it would be able to ``ensure'' a common 
operational picture within the Department any more than it can today, 
or how it would serve as the ``primary connection'' between DHS and the 
intelligence community or as a ``primary source'' for state, local, and 
private sector partners without a clear mandate as the Department's 
lead intelligence entity. Nor, does it appear, has the Secretary 
provided Congress with any additional detail.

    <bullet> The Chief Intelligence Officer should be confirmed by the 
Senate.
    Under the Secretary's proposed reorganization, there is no official 
below the level of the Secretary with Department-wide intelligence 
responsibilities who would be confirmed by, and accountable to, 
Congress. Although the Assistant Secretary for IA was never a confirmed 
position, the Under Secretary for IAIP required Senate confirmation. 
The Chief Intelligence Officer, however, will now report directly to 
the Secretary (and the Under Secretary for IAIP will become the Under 
Secretary for Preparedness, without any intelligence responsibilities). 
For various reasons, not least of which is accountability, the lead 
intelligence official for DHS should be a Senate confirmed position.
    <bullet> The Chief Intelligence Officer needs a clearly defined 
role and priorities.
    As discussed earlier, while IA was given a broad statutory mandate, 
it was never assigned a clear role once TTIC was created. The Secretary 
should prioritize IA's responsibilities and clearly articulate, whether 
in a department directive or another vehicle, the role of IA as the 
Department's lead intelligence entity. For instance, the Secretary 
should make plain that the Chief Intelligence Officer is his principal 
intelligence advisor, that IA is responsible for providing a common 
operational picture across all of the Department's intelligence 
components, and that IA is to be the Department's primary point of 
contact with the newly established Director of National Intelligence 
(DNI) and NCTC.

    <bullet> The Secretary must demonstrate support for the Chief 
Intelligence Officer.
    Simply making the Chief Intelligence Officer directly report to the 
Secretary will be nothing more than mere cosmetic change if the 
Secretary does not support this new official. That support means 
sufficient staff and resources, but also the less tangible forms of 
bureaucratic support that so often determine who can get things done in 
Washington. One way of communicating this support would be to make 
clear the IA's role and authority in budget and personnel matters. In 
other words, when the Chief Intelligence Officer meets with the FBI or 
CIA Director, it must be implicit that he has the backing of the 
Secretary in order for him to be taken seriously.

    <bullet> The Chief Intelligence Officer should have additional 
authorities via-a-vis the Department's intelligence components.
    In announcing his proposed reorganization, the Secretary noted that 
IA would be strengthened and that the Chief Intelligence Officer must 
ensure that intelligence from across the Department is coordinated and 
fused into a common operational picture. DHS currently has more than 10 
different intelligence elements (within various Department components, 
such as the Secret Service, Customs and Border Protection, the Coast 
Guard, Transportation Security Agency, etc.). In order to coordinate 
and ensure unity of effort among these various elements, the Chief 
Intelligence Officer will need some combination of budget (development 
and/or execution), personnel, and tasking authority over their 
activities. Whether the best model is the DNI or the Under Secretary 
for Intelligence at DoD, the Chief Intelligence Officer cannot be 
expected to be any more successful coordinating the Department's 
various intelligence elements simply because of a new title.

                 Unity of Effort in Information Sharing

    It is the Chief Intelligence Officer's role to make sure that 
information from all intelligence offices in the Department of Homeland 
Security is not only analyzed, but disseminated to those who need it. 
We have the highest regard for the newly-appointed Chief Information 
Officer, Mr. Charles Allen. He has extraordinary experience in the 
intelligence community. But he faces a formidable challenge.
    Recent reporting suggests that communication and collaboration 
between the Department and state homeland security officials nationwide 
is not what it should be. It is not up to us to say who is right and 
who is wrong: suffice it to say there is a problem, and the Chief 
Information Officer has the responsibility to address it.
    Historically, federal law enforcement agencies have been largely 
unwilling to share information with their state and local counterparts. 
Distrust continues to exist between federal and local partners. State 
and local officials, for their part, traditionally have kept 
information to themselves rather than input data into systems. Federal 
authorities need to build confidence with state and local officials by 
developing systems on which they are trained, a broad concept of 
operations they understand, and a standard reporting procedure that 
they know how to use.
    DHS cannot expect state and local officials to want to team up with 
headquarters if it does not provide reliable and consistent leadership. 
The recent controversy over the credibility of a threat to New York 
City's subway system is a case in point. On October 6, the New York 
Police Department reacted to information from the FBI which suggested 
the system was at risk of being attacked in the next few days. DHS, 
however, took a different position, and evaluated the information as 
less than credible.
    Because I have no way of knowing whether DHS and FBI simultaneously 
provided their basis for challenging their informant's credibility 
along with the specifics of the alleged plot, it is difficult to 
determine whether there was a breakdown in information sharing or 
whether there was simply a difference of opinion regarding the 
credibility of the underlying information.
    A priority for the Chief Intelligence Officer must be to strengthen 
the relationship between DHS and its customers. State and local police 
need to know that the information they provide to DHS will be properly 
integrated and not ignored. They need to know that DHS will provide the 
necessary information to them in turn.
    It is essential that the Chief Intelligence Officer at DHS work 
closely with the Program Manager for Information Sharing. In our final 
report, we recommended that the president lead the government-wide 
effort to create a trusted information network. We were pleased that 
the intelligence reform law created a new position to coordinate this 
effort. Six months ago, the President appointed John Russack as the 
first Program Manager. We understand that Mr. Allen is forging a strong 
working relationship with Mr. Russack, to help him overcome the 
cultural and bureaucratic obstacles to information sharing. This is 
encouraging news.

                            Closing Comments

    Mr. Chairman, Secretary Chertoff's recognition of the primacy of 
information intelligence analysis and sharing is critical to a 
successful homeland security strategy. His appointment of Mr. Charles 
Allen to the key position of Chief Intelligence Officer is a positive 
sign. Our nation has a strong interest in Mr. Allen's success. We urge 
Secretary Chertoff to provide Mr. Allen the authorities he needs to get 
the job done.

    Mr. Simmons. If I could now go into the question phase, I 
would say, first of all, I agree with your principal points. I 
have no objection to the principal points, and it may well be 
that it is appropriate for this committee, this committee 
working with the House Intelligence Committee, to move forward 
and incorporate some of these proposals in a legislative form, 
to make some of these recommendations more permanent. And that 
is one of the issues that we have been concerned about, that we 
try to establish a system that goes beyond personal 
relationships. I reminded my colleague that a few years ago, 
John Foster Dulles had a very good personal relationship with 
Allen Dulles, but that is it not the way our government 
operates. We try to operate under the law and within a system.
    You, a number of years ago, served in an important capacity 
in the Watergate investigation, and the Watergate investigation 
led to the Church committee and the Pike committee 
investigations of the Intelligence Community. And that led to a 
perception here in America that there was a culture of secrecy 
that invaded our government, and that somehow the American 
people had to get their arms around that secrecy system.
    I remember in the early 1980s as staff director of the 
Senate Intelligence Committee dealing with Gerry Berman and 
Warren Halpern from the ACLU Project on Government Secrecy and 
trying to frame our policies in such a fashion that the 
American people were reassured that their government was not 
too powerful and doing things in secret. At the time, when it 
was proposed that we have a counterintelligence or a 
counterespionage database, an integrated database, that was 
rejected as giving the government too much power. And yet just 
a few minutes ago, the distinguished gentleman from 
Massachusetts was discussing in some detail his concern that 
DHS does not have a common database, and other members of this 
committee have expressed concern that at a larger level the 
government's database data sharing, information sharing is not 
adequate because it is not integrated. So it is almost as if we 
have come full circle from a point where integrated national-
level databases were anathema to our Nation to the point where 
now people are saying we absolutely need it.
    How do you see our balancing these two goods? One good is 
national security. We know now that people can kill us with 
weapons of mass destruction, and they can do it within the 
continental United States. On the other hand, we know that too 
much power in government can abuse our liberties. How do you 
see the balance today?
    Mr. Ben-Veniste. Well, you have been a leader on the 
question of declassification and too much overclassification, 
and I applaud that. It is an interest of mine, and I have 
spoken out on the subject. Indeed, I am recently informed that 
from 2001 through 2004, there has been a fourfold increase--80 
percent, I am sorry--an 80 percent increase in classification 
in just those 4 years, at tremendous cost to maintaining the 
classified files, but perhaps even greater cost to openness in 
our society.
    So it is true, there is too much classification. On the 
other hand, there are privacy interests and civil liberties 
interests that have to be factored into the equation, and 
applaud Secretary Chertoff for speaking to those issues.
    The proof of the pudding, however, will be in how this 
balance is effectuated. We cannot sacrifice our civil liberties 
and our way of life in the face of this kind of a terrorist 
threat. Now, we have to be smarter. We have to be more focused. 
When we talk about a database and collection of materials, yes, 
we need to collect materials. We have to be smart about it.
    The problem that the Church committee found was that 
elements of the Intelligence Community, for example, the 
Department of Defense, had undercover operatives collecting 
intelligence within the United States against such well-
respected organizations as the Civil Liberties Union, as the 
various other entities, and indeed they infiltrated the 
Republican convention in collecting information on the floor of 
the convention. So obviously, you have to have some kind of 
guarantee that the information that is collected is not 
information that impinges on our first amendment rights to 
assemble and to speak out.
    And so as we go forward, and as the 9/11 Commission has 
recognized in several places in our report, great attention has 
got to be paid to the central fabric of our society, what we 
are about is an open and inclusive and diverse society, and not 
to allow either legitimate fears or the politics of fear to 
interfere with our basic and fundamental liberties.
    Mr. Simmons. I thank you for that.
    If you have time, I have a second question, but I now yield 
to the Ranking Member.
    Ms. Lofgren. Thank you, Mr. Ben-Veniste, for spending your 
afternoon with us. And I know that you have to leave, so I will 
be very quick.
    First, I met with Mr. Allen yesterday for our getting to 
know you because I think all of us on the committee recognize 
that he is a qualified person, very well experienced. We are 
very hopeful that he will be able to clean up the Department, 
but the issue I raised with him privately, and really that you 
have raised here today, is whether he has sufficient tools in 
the structure to actually accomplish what he has the capability 
of accomplishing.
    So my question to you, just bluntly, is, number one, do you 
believe he has sufficient budget and personnel authority to 
really accomplish what we have asked him to do?
    I also wonder--and the privacy issues are very much a 
concern of mine in the civil liberties issues, and I believe 
they are also a concern of Mr. Allen's. I don't know if you've 
had an opportunity to take a look at the Markle Foundation 
recommendations to us. If you have, do you think implementing 
and adopting the Markle Foundation recommendations would 
accomplish what we want to accomplish by way of protection of 
civil liberties?
    Mr. Ben-Veniste. Well, let me start first with budget 
authority. To my knowledge, there is no formal budget authority 
provided. I don't know that I would go so far as to say that 
this should be legislated, and that there has to be a decision 
by the Secretary to formally provide such authorities to Mr. 
Allen. On the other hand, I think it is important to get a 
sense from the Congress of your concern over that issue, and 
that Mr. Chertoff ought to make clear that this is a process in 
which Mr. Allen has more than a simple seat at the table, but 
this will be a collaborative process that he will be involved 
in these budgetary decisions, because as we all know in 
Washington, whoever writes the check gets the most attention.
    So that is my feeling about that. Others on the Commission, 
I must say, feel more strongly about providing specific 
authorities to Mr. Allen.
    With respect to the civil liberties, we note that the 
position is unfilled at DHS at this moment. We are extremely 
concerned that the Civil Liberties Board, which was a 
recommendation by the 9/11 Commission, and which was enacted 
into the reform--Intelligence Reform Act, has not yet met. It 
was a year late in being appointed. The names for the Chair and 
cochair were recently sent to the Senate for confirmation. I 
must say there has been virtually no progress made in that 
regard. At this point the DNI has not identified or appointed 
his civil liberties person, point person within the DNI, so 
there is much to be done and good reason for concern that civil 
liberties is getting the type of attention that is necessary.
    Ms. Lofgren. Just a final question. I believe that we do 
need to have some commonality of databases, and I think that 
the civil liberties and privacy protections can be built into 
the technology. I mean, the fact that you want to have privacy 
doesn't mean you don't want to have information. But I am 
wondering if you or anyone on the Commission has had an 
opportunity to take a look at the state of our technology at 
the Department.
    Mr. Ben-Veniste. Well, I would like to be able to think on 
that and then get a response to you, Ms. Lofgren.
    Ms. Lofgren. Thank you very much.
    And I yield back, Mr. Chairman
    Mr. Simmons. The Chair now recognizes the Chairman of the 
Subcommittee on Terrorism, Human Intelligence, Analysis and 
Counterintelligence, who has cochaired this hearing this 
afternoon, Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Simmons. Some of us have 
been fighting for an instant check for about the last 8 years 
just to register a handgun, a system that goes in, and, where 
it may fall through the cracks at a local level, that if we had 
a system, we could use it not only for registration of any 
weapon, but we could use it for the means that I think that you 
are talking about, too.
    I see a yin and a yang with the Civil Liberties Union. My 
current situation, I think you are going to find a new recruit 
for yourself for the Civil Liberties Union. I have seen--
    Mr. Ben-Veniste. I am sure we will be glad to have you. And 
let me say that I am not speaking for the Civil Liberties Union 
per se. And I am not a member of the ACLU. But I must say, I am 
greatly concerned about how we engineer this balance. Our 
history has shown us that the greatest challenges to our 
liberties come in time of crisis.
    Mr. Cunningham. I agree. And I have seen the power of the 
government and just how a normal citizen is helpless from it. 
And seeing that, you get-- you kind of gain a new respect.
    Now, let me give you the other side of the equation and 
sometimes why some of us feel put out by the same organization. 
There was a report called the Phoenix Report, and that report 
was about the pilots that trained in Arizona that crashed into 
New York City. Those pilots and their cohorts spoke about 
supporting Osama bin Laden. They spoke about supporting al-
Qa'ida, of killing Jews, of killing Americans, nonbelievers. 
But yet, when the local law enforcement and some of our 
agencies wanted to go after them--and this was briefed to us in 
the committee. First of all, they had a real action thing that 
in Libya--it wasn't Libya, it was Yemen. They were trying to 
get out two of our operatives because they were in a safe 
house, and that was their priority. But one of the other things 
that they feared, that if they went after these individuals, 
they would be brought up by those organizations in court, and 
they were limited so much with all the deployments and 
overworked that they would be brought up before the courts, and 
they couldn't do that. So in that case, the Civil Liberties 
Union and the ACLU, I thought, was a disservice.
    But I have also seen the other side of it, and there was 
another hearing that I sat through that you learn things, I 
guess, as you get older about good and bad and ugly. And it is 
not all--I used to think they were both all bad, let me just 
say that. But I have learned that that is not the case, and I 
would like to thank you for your service.
    The sharing of information is very, very critical, but I 
can also see-- sitting in the service, I was on a mission once, 
and the controller called black bandit; and I said, what is a 
black bandit on the radio? And they wouldn't tell me because it 
was classified. They wouldn't share the information. I, as the 
pilot, didn't need to know what this meant. Is it the 
Vietnamese pilot was low on gas? And they wouldn't tell me. I 
thought that was pretty important stuff, and I didn't find out 
until I got back to the Pentagon. And you can imagine the anger 
about the sharing of the information, but yet they didn't want 
to give up the source that they knew that he was low on fuel, 
and if they had told the world that he was low on fuel, the 
Vietnamese would know it.
    So there is a mix and a balance of these things. And I want 
to thank you for what you do, Mr. Ben-Veniste, and the issues 
that you bring. We may disagree on some of the issues, but I 
thank you for doing it. And I yield back.
    Mr. Ben-Veniste. Well, thank you. I think you are--may I 
comment, Mr. Chairman? Your point is very well taken in terms 
of how we have to be smarter and focused. Obviously, al-Qa'ida 
knows how open a society we are, and how vulnerable we are, and 
how we cherish our protections. That cannot mean that there are 
areas where they can operate where we may not go. For example, 
we cannot allow an institution, a building, a mosque to be 
specific, to be completely prohibited from any kind of 
intelligence activities because that would provide sanctuary in 
an unrealistic way, given the information we know. By the same 
token, we cannot have willy-nilly agents operating in mosques 
throughout this country. That would be grossly unfair to our 
loyal and patriotic Muslim population in this country. So that 
the FBI, for example, has set up rules that require very high-
level, at the highest level, authorization to conduct 
investigations within houses of worship, such as a mosque, 
under circumstances like this.
    So your point is well taken. There has got to be a balance. 
But as I say, to meet this challenge and preserve our 
liberties, we have got to be smarter and more focused than we 
have ever been in our history.
    Mr. Simmons. If you would indulge me for one final 
question.
    Mr. Ben-Veniste. Yes, sir.
    Mr. Simmons. If my colleagues would indulge me.
    Ms. Jackson-Lee. Mr. Chairman, I didn't--
    Mr. Simmons. Oh, I am sorry. Ms. Jackson-Lee. I apologize.
    Ms. Jackson-Lee. I am cognizant of the gentleman's time. 
Thank you very much, Ben, if I might call you that, because I 
want to thank you for your work.
    Mr. Ben-Veniste. Richard would be good.
    Ms. Jackson-Lee. I got the middle part, didn't I?
    Mr. Ben-Veniste. Thank you.
    Ms. Jackson-Lee. Thank you for that work. And as well work 
that we did some years ago and your leadership on that as well.
    It troubles me with the questions that I asked Mr. Allen on 
how we could be more synergistic, if you will, I used that term 
before, with the Department of Homeland Security and the 
intelligence. And I would ask your comment on that. I feel 
uncomfortable in his new position, that we are not well 
integrated with our Intelligence Community. It was one of the, 
I think, egregious areas of 9/11, if we highlight anything 
about the Intelligence Community. Now, with the Homeland 
Security Department, which I think is a positive step, I don't 
think the glue is there.
    Would you comment on how this new position, or the position 
that was now filled by Mr. Allen, can be utilized to improve 
efficiency in the Intelligence Community, and then you would 
add to that whether or not Mr. Allen's position could be viable 
without budget authority and whether or not budget authority is 
needed? And then if you would comment as well on the question I 
asked him, though he offered that we would have a closed 
briefing, how would you analyze the way we performed with 
respect to the two incidents, the one in New York dealing with 
a threat to rail security and then now the one in Baltimore, 
just from your perspective as you sat on the Commission. And I 
thank you very much for that service.
    Mr. Ben-Veniste. Thank you, and it is a pleasure to see you 
again, Congresswoman.
    Let me start with your last question first. And I think it 
would be irresponsible for me to comment on that because you do 
need a closed briefing to know what was said and when it was 
said and what was provided to the local authorities. If I were 
sitting on the committee, I would want to know whether the 
specific information that was provided in New York and in 
Baltimore was accompanied by an assessment of the credibility 
of the underlying source, because here we learn that very 
quickly, after New York reacted in the way it did to the threat 
information, the Department of Homeland Security was, through 
various briefings here in Washington, saying that the--that 
they did not regard it as a credible threat.
    Now, particularly with foreign intelligence information, it 
becomes very difficult, as this information passes through 
various channels and gets to State and local authorities, to 
provide the kind of evaluative information, information that 
would help them determine whether a specific threat is credible 
or not. I could give you a very specific threat that someone 
was going to put $50 in your office drawer, but if I told you 
it was the tooth fairy, you wouldn't be worried about that. So 
you have got to know who it is that these people are talking 
about. And the problem is the same information sharing and 
willingness to provide information, you can't give half a loaf. 
If you give half a loaf, you may be costing a tremendous amount 
of money in terms of reaction, and not just the cost of the 
police riding the subways and that, it is also the cost of 
instilling fear in a certain segment of the public, and people 
will be at varying levels, much more vulnerable to hearing this 
time and again.
    On the other side, you are going to have the Chicken Little 
effect; that is, when there is a true and credible threat that 
they have to react to, people will not take that threat 
seriously because of all of the false alarms that they have 
heard before.
    So whether it be Chicken Little or the boy who cried wolf, 
it is imperative that we keep faith with our State and local 
authorities. We can't expect mayors and Governors to act 
responsibly with only a portion of the information. They have 
to become full partners here, and this is one of the things 
that we have talked about at great length and highly 
recommended with the Commission's report.
    Budget authority, I think I have addressed my own views on 
that. I think that Mr. Allen has a great storeroom of knowledge 
about how things work in the Intelligence Community, and I 
think the personal relationships are very useful in that 
regard. He knows where to look for things. He knows the kind of 
dodges that are put forward. He knows, you know, the difference 
between shoe polish and other stuff. And so that is very 
helpful. But it is not going to happen without leadership, and 
there's got to be consistent leadership from the President on 
down. The President has got to want this to happen. The 
Secretary has got to want this to happen, and then hopefully, 
hopefully it will start to happen.
    But we are dealing with decades-long resistance to sharing 
of information, and in order for us to be the smarter, more 
focused kind of Intelligence Community that is necessary here, 
we have got to break down those walls, that resistance, because 
obviously, the greater efficiency in getting this information 
collected and analyzed, the better off we will be. 9/11, in our 
view, might have been prevented had we utilized the information 
which had been collected in advance of 9/11 in an efficient and 
effective way, and that is the lesson in its simplest form that 
we have got to apply as we go forward in the next months, years 
and indeed decades.
    Ms. Jackson-Lee. Both our time is up. Let me just thank you 
for appropriately answering the first question with the 
appropriate dodge of asking to relay that in the context of 
sharing classified information. But that was the gist of the 
inquiry, which is we could have done it better, or we can do it 
better; however, we may be briefed in a classified manner.
    And I will just close by saying to you and to this 
committee that there is much agreement that we could have 
avoided 9/11, saved lives, and our best intent of the Homeland 
Security Department was to be able to save lives prospectively, 
and that is what I hope we can do with a better intelligence 
system, and I don't think we are there yet. And I thank you for 
answering.
    Mr. Ben-Veniste. I commend the subcommittees here today 
because it is critical that Congress, in its oversight 
capacity, do the necessary. I mean, we have got to work 
together with the executive branch here to really hold their 
feet to the fire. It is not enough just to talk the talk here. 
You can't just give lip service to these problems. It is an 
every day job that requires hard work and, I have to say, 
focused and intensive oversight by the Congress
    Mr. Simmons. We have had a very exceptional hearing this 
afternoon. I will note for the record that page 413 of the 9/11 
Commission report has an outline or a line and block chart of 
recommendations, and included within the recommendations is an 
open source agency. I assume, Mr. Ben-Veniste, that you support 
the concept of open source.
    Mr. Ben-Veniste. We certainly do. This is an area in which 
we felt had been neglected over time there has been a much 
greater focus on gizmos and gadgets and a substantial lobby to 
get those items purchased. I don't denigrate their usefulness, 
but there is a tremendous amount of information that can and 
should be collected, and that information should not then be 
classified. I mean, this is--in your questions to Mr. Allen, 
you make the obvious point, you know, this is open source 
material. So let's use it in an open and constructive way. It 
sounded to me like Dr. Strangelove, no fighting in the war 
room. This is open material.
    Mr. Simmons. And if we take the thought just a little bit 
further, if, in fact, there is a concern in America that there 
not be too much secrecy in government, doesn't a Department of 
Homeland Security intelligence capability lend itself to the 
concept of open source, of specializing in openly acquired 
information that is then processed analyzed and disseminated? 
Isn't this a sort of a natural home for this discipline?
    Mr. Ben-Veniste. It is, but my own caution is that in 
collecting the information, you have got to be sensitive to 
where you are collecting it as well as how you are collecting 
it, and disseminating it with a regard for civil liberties and 
the sensibilities that are associated with that. So it has got 
to be focused. We have got to be smarter, and we have got to be 
more focused.
    Mr. Simmons. Absolutely.
    We thank you very much for your testimony and for answering 
the questions. I thank the staff for coordinating a hearing 
among two subcommittees of two different committees. That is a 
huge challenge. I used to be a staffer myself. I know how 
difficult it is. I thank them, and I thank you, Mr. Ben-
Veniste, for your testimony.
    Ms. Jackson-Lee. Chairman, names are important here. So may 
I just say thank you, Richard Ben-Veniste. Thank you very much.
    Mr. Ben-Veniste. Thank you, Sheila Jackson-Lee.
    Mr. Simmons. This hearing is now concluded.
    [Whereupon, at 5:07 p.m., the subcommittees were 
adjourned.]


                            A P P E N D I X

                               ----------

                   Material Submitted For the Record

          Charles Allen Responses to Hon. Zoe Lofren Questions

    (1) Mr. Allen, will you have direct line authority whereby you can 
direct the various intelligence units within the Department to gather 
specific kinds of information for particular analysis needs and--
perhaps most importantly--will you have budgetary authority over those 
intelligence units in order to drive a common intelligence mission?
    Response: As Chief Intelligence Officer, I draw on two main streams 
of support to exercise authority over the intelligence offices in the 
DHS operating components.
    First, I use the Homeland Security Intelligence Council (HSIC), 
which I chair, as a key instrument for exercising authority over the 
DHS intelligence enterprise. The HSIC, a decision-making body that 
meets at least every other week, consists of heads of the intelligence 
offices of the DHS operating components.
    Second, I exercise my oversight authorities with the support of the 
Department's Chief Financial Officer and Chief Human Capital Officer 
within the Office of the Under Secretary for Management. With respect 
to budget authority, overall DHS intelligence requirements, as defined 
by me, will be coordinated with the Chief Financial Officer and the 
Under Secretary for Management to ensure they are accurately reflected 
in budget documents submitted to Congress. As an example of my 
budgetary authority, the DHS Future Years Homeland Security Program 
(FYHSP) for FY2008-2012 will include language from the Chief 
Intelligence Officer requiring components to provide programmatic 
detail and requested resource levels for their intelligence programs 
and activities to the Chief Intelligence Officer, to include services, 
requested FTEs and requested budgets, so that I can review the proposed 
cross-Departmental capability of the DHS Intelligence Enterprise for 
FY2008-2012 and advise the Secretary as to whether this will meet the 
Department's and its customers' needs.
    As I noted in Congressional testimony in October 2005, I believe I 
have sufficient authorities to lead and manage the DHS intelligence 
activity.

    (2) If not, how will you get the intelligence shops to do what you 
want them to do without control over their budgets?
    Response: In my role as Chief Intelligence Officer, I am currently 
leading a strategic planning effort across the Department's 
Intelligence Enterprise, which includes all the intelligence components 
in DHS.
    The first phase of the strategic planning concluded on 10 January 
2006 with the production of the first ever DHS Intelligence Enterprise 
Strategic Plan, which sets forth the vision, mission, and strategic 
goals and objectives for the entire DHS Intelligence Enterprise.
    Later in January, the second phase of the strategic planning will 
conclude with the production of a DHS Intelligence Enterprise Action 
Plan, which will lay out a roadmap the intelligence components of the 
Department will follow as they integrate and move toward realizing the 
goals and objectives of the strategic plan.
    Finally, the Department's FYHSP, scheduled for release early-Feb 
2006, will include the first ever guidance for the intelligence 
components in the Department to build their intelligence programs 
toward the end-state of becoming an integrated DHS Intelligence 
Enterprise. This guidance will shape the program build for 2008-2012 
and help ensure the realization of the Department's vision of an 
integrated DHS intelligence enterprise, optimized to support the full 
spectrum of the Department's missions and customers.

    (3) As you pull the Office of Intelligence & Analysis together, how 
will you judge your progress--specifically, what metrics will you apply 
to gauge improvement and areas in need of improvement?
    Response: The Office of Intelligence and Analysis, under my 
leadership as Chief Intelligence Officer, is currently participating in 
the Department-wide Intelligence Enterprise strategic planning. In 
January 2006, the Office will examine the action plans it has developed 
across its mission areas/services (plans that will be grounded in 
timelines and deliverables in both the current fiscal year and the out-
years) and develop performance measures, to include outcome-based 
metrics, to gauge the Office's progress. The Office of Intelligence and 
Analysis is currently also working to hire at least two intelligence 
professionals with strong backgrounds in performance management, 
program review, and budget-performance integration. These professionals 
will reside in the Planning and Integration Division and provide a 
continuing capability to review not only the Office's progress but also 
that of the entire DHS Intelligence Enterprise. The Office of 
Intelligence and Analysis will continue to work closely with both the 
Department's Program Assessment and Evaluation Office as well as the 
equivalent office in the Office of the Director of National 
Intelligence (ODNI) to ensure its approach, as well as that of the 
entire DHS Intelligence Enterprise, to performance management is 
consistent with the Government Performance Results Act, the President's 
Management Agenda, Departmental and Intelligence Community guidelines, 
and the best practices both in the government and the private sector.

    (4) What obligations should or will the Chief Intelligence Officer 
to the Director of National Intelligence and what control should or 
will the Director of National Intelligence have over the Chief 
Intelligence Officer?
    Response: In my role as the Chief Intelligence Officer and as 
Assistant Secretary for Intelligence and Analysis, I report to the 
Director of National Intelligence as specified in the Intelligence 
Reform and Terrorism Prevention Act of 2004, the Homeland Security Act 
of 2002, and Presidential Directives and Executive Orders.

    (5) In your assessment, what has the quality of the Department's 
intelligence analysis staff work been to date in terms of providing 
information to state and local governments and to the private sector 
regarding threats to their communities and/or facilities?
    Response: Since its inception two and a half years ago, the Office 
of Intelligence and Analysis has made progress in providing timely, 
actionable intelligence to its non-Federal partners with regard to 
threats to their communities and/or facilities.
    The Office of Intelligence and Analysis regularly communicates 
threat information with State and Local officials and the Private 
Sector. Typically this threat information is communicated in warning 
products that include protective measures that State and Local and 
Private Sector officials can take to increase security in their areas. 
These include specific procedures, as well as information regarding the 
present situation. In the past, reports have included recommendations 
to maintain surveillance of critical locations, assess emergency plans, 
screen personnel, and provide a visible presence as a viable form of 
deterrence. Past reports have also detailed such actions as the use of 
random or rolling patrol operations and have included information on 
test kits and valuable public websites. Additionally, I&A has published 
a number of Red Cell reports focusing on issues of concern to State and 
Local officials and the Private Sector. DHS Office of Intelligence and 
Analysis works closely with the Under Secretary for Preparedness and 
the Office of State and Local Government Coordination to ensure it is 
communicating threat information relevant to its non-Federal partners 
along with actionable recommended protective measures.
    But much more needs to be done. Since my arrival in October 2005, I 
have made the improvement of the quality of analysis one of my top five 
priorities for the Office of Intelligence and Analysis. My commitment 
to this priority is demonstrated by the significant investments we are 
making in training to ensure the continuing maturation of this critical 
analytic support to the Department's partners in state and local 
government and the private sector.
    The quality of DHS' intelligence analysis work to date in terms or 
providing information to State and Local governments and to the private 
sector regarding threats to their communities and/or facilities is 
maturing as I&A works with both our State and Local partners, and the 
private sector owners and operators to develop information 
requirements, appropriate forums, and intelligence products tailored to 
the respective customer. Specifically, the Homeland Infrastructure 
Threat & Risk Analysis Center (HITRAC) provided guidance for the 
development of the National Infrastructure Protection Plan (NIPP) to 
provide risk based analysis to the critical infrastructure sectors. 
Additionally, as directed by Homeland Security Presidential Directive 
(HSPD)-7, HITRAC threat analysts work very closely with our 
Infrastructure Protection specialists and sector specific agencies to 
provide threat tailored threat briefs, products, and assessments to 
senior executives and of the appropriate sector Government Coordinating 
Council and Sector Coordinating Council. Recognizing the inter-
dependant nature of both critical infrastructure/key resources (CI/KR) 
and large urban areas, HITRAC has also produced ad hoc products 
specifically for State and Local authorities based upon threats to 
infrastructure located within their governance, including information 
bulletins regarding threats to chemical facilities in New Jersey and 
critical infrastructure located in the Gulf Region following the 
aftermath of Hurricanes Katrina and Wilma. HITRAC threat analysts have 
met and worked with Protective Security Advisors in large metropolitan 
areas such as Chicago and PSA's and local police authorities in New 
York City to develop relationships and share threat assessments with 
private sector owners and operators. These initial efforts will enable 
HITRAC to develop the appropriate relationships to further improve 
information sharing at both a strategic and ad hoc level based on the 
prevailing threat conditions to municipalities and CI/KR at any 
specific period.
    Many of the employees within the legacy agencies that comprise the 
Department do not view themselves as either collectors of intelligence 
information or contributors to the Department's intelligence analysis 
mission. Many of them nevertheless come into possession of information 
on a daily basis that--if given to the right people--could help 
identify emerging terrorist threats.

    (6) What specific efforts should the Chief Intelligence Officer 
make to establish an ``intelligence culture'' at the Department where 
all employees will instinctively consider how the information they 
obtain might contribute to the Office of Intelligence and Analysis' 
efforts?
    Response: As the Secretary said in his Second Stage Review Remarks 
from July 2005, intelligence is at the heart of everything we do in 
DHS. These important remarks set the stage for the full realization of 
the Department's role in gathering, analyzing and fusing information 
from across all the components and disseminating the resulting 
intelligence to a broad spectrum of customers, both within the 
Department and without, and both within the Federal government as well 
as to our non-Federal partners.
    As the Chief Intelligence Officer, I have tasked my Director of 
Training to develop a learning and development strategy to meet not 
only the needs of the Office of Intelligence and Analysis but also the 
requirements of the entire DHS Intelligence Enterprise, which includes 
all the intelligence components of the Department. The Director of 
Training is partnering with the Federal Law Enforcement Training Center 
to ensure its intelligence courses, both for future DHS intelligence 
professionals as well as for its officers, agents and inspectors, are 
consistent with the vision that everyone in the Department consider the 
information they obtain through their operations for its potential 
intelligence value.
    In addition, recognizing the priority of establishing a culture not 
only of intelligence but also of information sharing, we are 
participating in the Intelligence Community's Information Sharing 
Training and Education Plan. In this manner, we will establish a 
culture that not only is sensitive to the intelligence value of all the 
Department's information--but is supportive and proactive in sharing 
this information appropriately, securely and in full accord with civil 
rights and civil liberties.
    One area of ongoing concern is sensitive but unclassified 
information--information that is often in the hands of the private 
interests that own or control the vast majority of critical 
infrastructure in this country.

    (7) How will the Chief Intelligence Officer encourage the private 
sector to share this type of information, given private industry 
concerns about business losses due to public disclosure of proprietary 
information, private sector fears of liability for disclosure, and 
private citizen's fears of inappropriate and overreaching government 
secrecy?
    Response: DHS is aware of, and maintains strict adherence to, the 
Protected Critical Infrastructure Information requirements for 
protecting private sector information. Analytic products, which deal 
with threats to the infrastructure, are coordinated via HITRAC with 
members of the Office of Infrastructure Protection, now part of the 
Directorate for Preparedness, who work to ensure the interests of the 
private sector.
    In addition, DHS I&A has jointly published with the FBI a Terrorist 
Threat Reporting Guide tailored to the private sector to provide 
indicators of what activities they encounter may be of interest to DHS 
and the FBI.
    DHS IA personnel participate in regular training on the handling of 
intelligence information and maintain a strict adherence to 
intelligence handling policies and laws, particularly with respect to 
the handling of U.S. persons information.
    From what I have heard to date, Secretary Chertoff has not included 
a continuity of operations (COOP) plan for the Office of Intelligence & 
Analysis in the event of a catastrophic national, regional, or local 
event.

    (8) What should a COOP plan for the Office of Intelligence & 
Analysis look like, and what are your plans in this regard?
    Response: DHS Office of Intelligence and Analysis has been an 
active participant in Departmental COOP (continuity of operations) 
planning and guidance since its inception, formerly as a part of the 
Directorate for Information Analysis and Infrastructure Protection and 
now in its new role as a direct report to the Secretary. As part of 
IAIP, DHS Office of Intelligence and Analysis exercised its COOP 
readiness and operational ability in 2005 as part of the TOPOFF 3 and 
PINNACLE exercises. As a stand alone component, the DHS Office of 
Intelligence and Analysis recently participated in the Department-wide 
review of which functions are required and survivable in COOP 
conditions; the Office of Intelligence and Analysis used the results of 
that study to update its COOP Implementation Plan in light of the 
Office's new role and that of the Assistant Secretary, now designated 
as the Chief Intelligence Officer. The Office of Intelligence and 
Analysis COOP Implementation Plan was approved by the Chief 
Intelligence Officer in January 2006 and will be tested at the 2006 
Forward Challenge/TOPOFF 4 exercise.

    (9) Please advise if any contractors assisted in the preparation of 
the answers to these Questions for the Record; the names of any such 
contractors and the companies with which they are associated; the 
precise role of any such contractors in preparing the answers; the 
percentage of the work in preparing these answers the contractors 
performed; and how much the contractors were paid for their assistance 
in preparing the answers.
    Response: No contractors assisted in the preparation of the answers 
to these Questions for the Record.

                                 <all>

</pre></body></html>
